<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________

                           Serial No. 115-159
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                         


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-951                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8dfde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>                                
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     2
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, prepared statement..............................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    11
Hon. Susan W. Brooks, a Representative in Congress from the State 
  of Indiana, prepared statement.................................    84
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    85

                               Witnesses

Ajit Pai, Chairman, Federal Communications Commission............    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................   122
Michael O'Rielly, Commissioner, Federal Communications Commission    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................   152
Brendan Carr, Commissioner, Federal Communications Commission....    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   156
Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   158

                           Submitted Material

Statement of the Credit Union National Association, submitted by 
  Mrs. Blackburn.................................................    86
Statement of the Utilities Technology Council, submitted by Mrs. 
  Blackburn......................................................    88
Letter of July 23, 2018, from the the Committeee to the Federal 
  Communications Commission, submitted by Mrs. Blackburn.........    90
Statement of USTelecom, submitted by Mrs. Blackburn..............    93
Letter of July 10, 2018, from Mr. McKinley to the Federal 
  Communications Commission, submitted by Mrs. Blackburn.........    95
Statement of Anthem, Inc., submitted by Mrs. Blackburn...........    96
GAO report \1\, submitted by Mrs. Blackburn
Letter of July 23, 2018, from wireless ISPs to the Federal 
  Communications Commission, submitted by Mr. Doyle..............    99
Tweet from Chairman Pai, submitted by Mr. Doyle..................   108
Article entitled, ``Ajit Pai gets message from his hometown ISP: 
  Don't hurt us small ISPs,'' Ars Technica , submitted by Mr. 
  Doyle..........................................................   109
Letter of July 18, 2018, from the United States Department of 
  Commerce to the Federal Communications Commission, submitted by 
  Mr. Doyle......................................................   116
Letter of May 8, 2018, from Senator Wyden to the Federal 
  Communications Commission, submitted by Mr. Doyle..............   120

----------
\1\ The information can be found at: https://docs.house.gov/
  meetings/IF/IF16/20180725/108599/HHRG-115-IF16-20180725-SD010-
  U10.pdf.

 
           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 25, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:00 p.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Walters, Costello, Walden (ex officio), Doyle, 
Welch, Clarke, Loebsack, Ruiz, Dingell, Eshoo, Matsui, 
McNerney, and Pallone (ex officio).
    Staff Present: Jon Adame, Policy Coordinator, C&T; Samantha 
Bopp, Staff Assistant; Karen Christian, General Counsel; Kelly 
Collins, Legislative Clerk, Energy/Environment; Kristine 
Fargotstein, Detailee, C&T; Sean Farrell, Professional Staff 
Member, C&T; Margaret Tucker Fogarty, Staff Assistant; Adam 
Fromm, Director of Outreach and Coalitions; Brighton Haslett, 
Counsel, O&I; Elena Hernandez, Press Secretary; Paul Jackson, 
Professional Staff, DCCP; Bijan Koohmaraie, Counsel, DCCP; Tim 
Kurth, Deputy Chief Counsel, C&T; Lauren McCarty, Counsel, C&T; 
Drew McDowell, Executive Assistant; Brannon Rains, Staff 
Assistant; Evan Viau, Legislative Clerk, C&T; Greg Zerzan, 
Counsel, DCCP; Jeff Carroll, Minority Staff Director; Jennifer 
Epperson, Minority FCC Detailee; Alex Hoehn-Saric, Minority 
Chief Counsel, Communications and Technology; Jerry Leverich, 
Minority Counsel; Jourdan Lewis, Minority Staff Assistant; Dan 
Miller, Minority Policy Analyst; Tim Robinson, Minority Chief 
Counsel; and C.J. Young, Minority Press Secretary.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. I want to thank our 
witnesses for being here. We appreciate having you before us 
today. And I recognize myself for 5 minutes for an opening.
    And welcome to this hearing on Oversight of the Federal 
Communications Commission. Today's hearing marks the first time 
in 28 years that the FCC has appeared before this subcommittee 
having been reauthorized by Congress. So I am delighted to 
welcome the recently reauthorized Commission here today. This 
reauthorization effort reflects bipartisan, bicameral support 
of the FCC and the important work it carries out each day to 
enhance public safety, technologies and alerts, strengthen our 
national security, increase broadband deployment, and protect 
consumers while fostering competition and innovation in the 
communications marketplace.
    I hope today also demonstrates the importance of being 
reauthorized as each of the commissioners articulates how that 
action benefits the organization. I know we can deliver the 
same bipartisan accomplishment for your colleagues at the NTIA.
    While the FCC is charged with many important tasks, one of 
the most critical roles it plays revolves around public safety, 
from working to ensure it that alerting technologies warn the 
public of impending emergencies to aiding in the restoration of 
communication networks and services following emergencies, the 
FCC is responsible for making sure our communication systems 
are there when Americans are most in need of lifesaving 
information. This work is furthered through the Nation's 9-1-1 
service platform. With this year being the 50th anniversary of 
the first 9-1-1 call, we here in Congress have been actively 
working with both the FCC and the NTIA to improve the country's 
9-1-1 systems and facilitate the transition to Next Gen 9-1-1 
services. I am looking forward to hearing more today about the 
FCC's work to advance public safety before, during, and after 
emergencies the FCC has also worked closely with this 
subcommittee in our shared goal of promoting broadband access 
and closing the digital divide. We all agree on the importance 
of bringing the benefits of broadband to all Americans, and 
this is especially true in rural America. RAY BAUM'S Act 
included a number of bipartisan provisions for members of this 
subcommittee and members of the full Energy and Commerce 
Committee that will help the FCC in removing Federal barriers 
to broadband deployment, increasing the amount of available 
spectrum in funding broadband. And just last week on a hearing 
on rural broadband, we heard from a variety of stakeholders on 
the impact of that legislation. I look forward to hearing more 
today on how the FCC has begun to implement the legislation.
    I also look forward to hearing the Commission's 
recommendations on how we can improve connectivity for 
communities that are in desperate need of improvements to their 
education and healthcare services. It is this committee's 
primary role to conduct oversight of all the programs and 
policies overseen by the FCC, and I remain focused on our key 
priorities so we can focus the work of this commission.
    And at this time, I yield the balance of my time to Mr. 
Lance for an opening statement.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good morning and welcome to today's hearing on oversight of 
the Federal Communications Commission (FCC). Today's hearing 
marks the first time in 28 years that the FCC has appeared 
before this Subcommittee having been reauthorized by Congress. 
So, I am delighted to welcome the recently reauthorized 
Commission here today.
    This reauthorization effort reflects bipartisan, bicameral 
support of the FCC and the important work it carries out each 
day to enhance public safety technologies and alerts, 
strengthen our national security, increase broadband 
deployment, and protect consumers while fostering competition 
and innovation in the communications marketplace. I hope today 
also demonstrates the importance of being reauthorized, as each 
of the Commissioners articulates how that action benefits an 
organization. I know we can deliver the same bipartisan 
accomplishment for your colleagues at the NTIA.
    While the FCC is charged with many important tasks, one of 
the most critical roles it plays revolves around public safety. 
From working to ensure that alerting technologies warn the 
public of impending emergencies, to aiding in the restoration 
of communications networks and services following emergencies, 
the FCC is responsible for making sure our communications 
systems are there when Americans are most in need of life-
saving information. This work is furthered through the Nations' 
9-1-1 service platform. With this year being the 50th 
anniversary of the first call to 9-1-1, we here in Congress 
have been actively working with both the FCC and the NTIA to 
improve the country's 9-1-1 systems, and facilitate the 
transition to Next Generation 9-1-1 services. I am looking 
forward to hearing more today about the FCC's work to advance 
public safety before, during, and after emergencies.
    The FCC has also worked closely with this Subcommittee in 
our shared goal of promoting broadband access and closing the 
digital divide. We all agree on the importance of bringing the 
benefits of broadband to all Americans, and this is especially 
true in rural America. RAY BAUM'S Act included a number of 
bipartisan provisions from members of this subcommittee and 
members from the full Energy and Commerce committee that will 
help the FCC in removing federal barriers to broadband 
deployment, increasing the amount of available spectrum, and 
funding broadband. And, just last week in a hearing on Rural 
Broadband, we heard from a variety of stakeholders on the 
impact of that legislation. I look forward to hearing more 
today on how the FCC has begun to implement this legislation. I 
also look forward to hearing the Commission's recommendations 
on how we can improve connectivity for communities that are in 
desperate need of improvements to their education and health 
care services.
    It is this Subcommittee's primary role to conduct oversight 
of all the programs and policies overseen by the FCC and I 
remain focused on our key priorities so we can focus the work 
of the Commission.
    At this time, I will yield to the remainder of my time to 
Mr. Lance for an opening statement.

    Mr. Lance. Thank you very much, Chairman. This is the most 
important responsibility we have on this subcommittee, and 
certainly we believe that it is incredibly important that the 
Commission, which does such fine work, is responsive to our 
concerns. I commend all of the Commissioners for your work. It 
has been my honor to work with every member of the Commission. 
I want to continue to do so in as strong a capacity as 
possible. And moving forward, we have to make sure that we work 
in bipartisan cooperation on the issues so important to the 
American Nation.
    Thank you, Chairman. I yield back the balance of my time.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you Chairman Blackburn and thank you to Chairman Pai 
and the rest of the Commissioners for appearing before us 
today.
    I commend the Commission and the members of the 
subcommittee for the good, bipartisan work that has occurred 
over the past year and a half. Much of the coverage on telecom 
issues focuses on a few politically divisive issues; however, I 
believe these are the exception not the rule. From closing the 
digital divide, to ensuring public safety, there is much we can 
agree on.
    Just last night we secured passage of four bipartisan 
public safety and broadband access bills including two I worked 
on with Congressman Tonko, the PIRATE Act and ACCESS BROADBAND. 
Our greatest bipartisan achievement this congress was RAY 
BAUM'S Act, which finally reauthorized the FCC and included an 
array of other bipartisan legislation.
    Another thing we agree on is the importance of the US 
winning the race to 5G, which is why Ranking Member Doyle and I 
introduced the AIRWAVES Act early this year and have secured 
over fifty bipartisan cosponsors, a majority of which are on 
this Committee.
    I look forward to discussing important issues such as these 
with the Commissioners today, and hope to continue to work with 
all of you on ways to serve best the public, despite our 
differences.

    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize the subcommittee's ranking 
member, Mr. Doyle, for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this very, 
very long overdue hearing. And thank you to the witnesses for, 
finally, after 9 long months, coming before this committee once 
again.
    In the 9 months since our last hearing, the FCC has 
continued to expand its track record of anti-consumer, anti-
small business, anti-innovation policies. It seems that at 
almost every opportunity, the Commission has chosen 
corporations over consumers and failed in its duty to uphold 
the public interest. In December of last year, the Commission 
voted to eliminate net neutrality protections that are 
supported by the vast majority of Americans from all sides of 
the political spectrum. Chairman Pai's comments regarding the 
quote/unquote, chicken littles who were concerned about the 
repeal should take a look at the public opinion polls that show 
the vast majority of his own party is opposed to the 
Commission's action. These rules protected consumers and small 
businesses, as well as entrepreneurs and innovators. I am happy 
to say that the Senate has already passed a resolution 
restoring these rules. And we hope that we have a vote on our 
own bipartisan resolution here in the House.
    The rest of the Commission's agenda has been no better. 
They have proposed gutting Lifeline Program, which is an 
essential communications tool for millions of Americans, 
including veterans and seniors. The Commission has made a 
series of decisions to encourage consolidation among 
broadcasters, from eliminating the main studio rule to 
reinstating the UHF discount, weakening the kid vid rules, and 
proposing to change the congressionally established National 
Ownership Cap. It seems that each of these actions benefit 
broadcast corporations, and it leaves the public worse off.
    The Chairman has claimed that he cares about rural 
broadband deployment, but the Commission in its zeal not to 
burden major wireless carriers with reporting where they have 
wireless service deployed imposed as part of Mobility Fund II a 
bizarre and onerous challenge process that requires rural 
providers to hire people to walk through cornfields and 
backyards trying to prove that communities don't have wireless 
service. And if those companies can't afford to send people up, 
the Commission will assume these communities are connected. Now 
tell me, how does that help the 24 million Americans without 
access to high-speed broadband?
    In the same vein, how does making changes to the CBRS ban 
to make it less accessible to rural wireless providers who are 
deploying broadband in hard-to-reach communities enhance the 
Commission and this committee's shared goal of closing the 
digital divide? Well, it doesn't. This Commission's reckless 
actions are on broadband data services and copper retirement 
were so corporate friendly that NTIA, the White House's adviser 
for telecommunications policy, recently said that they remain 
``concerned, however, that streamlined regulatory requirements 
may place on Federal departments and agencies that rely on 
services subject to discontinuance in the untenable position of 
losing access to critical national security and public safety 
communications functionality.''
    How is the Commission putting the convenience of carriers 
above our Nation's national security and public safety needs? 
And that is besides the impact that these policies have on 
schools, libraries, hospitals, small businesses, and 
competitors that also rely on these services. What about 
Americans' privacy? Senator Wyden's office recently found that 
wireless carriers had been sharing the real-time location data 
of hundreds of millions of cell phones with third parties 
without consent from their users. That included sharing 
information with law enforcement agencies that used this data 
to illicitly look up Americans' location data without a warrant 
or due process. And we don't even know the scope of this 
problem because the Commission was asleep at the wheel. I 
understand that the Commission is now investigating, but how 
are you so in the dark on an abuse that was a widespread 
industry practice? And what confidence can this committee have 
that the Commission will take appropriate enforcement action 
against carriers who have so recklessly shared our location 
data without our consent? Again and again, the Commission has 
failed in its obligations to uphold the public interest and has 
instead repeatedly sided with corporations over consumers. And 
in waiting 9 months to do this oversight hearing, this 
committee has been complicit in the Commission's action by 
turning a blind eye and being derelict in our responsibilities 
to provide oversight for this agency.
    I would just add that, while I am pleased the Commission 
issued a hearing designation order for the Sinclair merger and 
in doing so acknowledged the near universal concerns about 
Sinclair's honesty and candor, I am extremely concerned that 
the President has weighted into this issue. I hope, Chairman 
Pai, that you can assure us the President's tweet last night 
will not cause the Commission to change course or affect the 
proceedings of an administrative law judge.
    Thank you. And I yield back.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you, Madam Chairman, for holding this very, very 
long-overdue hearing, and thank you to the witnesses for 
finally--after 9 long months--coming before this Committee once 
again.
    In the 9 months since our last hearing the FCC has 
continued to expand its track record of anti-consumer, anti-
small business, and anti-innovation policies. It seems that at 
almost every opportunity the Commission has chosen corporations 
over consumers--and failed in its duty to uphold the public 
interest.
    In December of last year, the Commission voted to eliminate 
Net Neutrality protections that are supported by the vast 
majority of Americans from all sides of the political spectrum.
    Chairman Pai's comments regarding the ``chicken littles'' 
who were concerned about the repeal should take a look at 
public opinion polls that show that the vast majority of his 
own party is opposed to the Commission's actions.
    These rules protected consumers and small businesses as 
well as entrepreneurs and innovators. I'm happy to say that the 
Senate has already passed a resolution restoring these rules, 
and we hope to vote on our own bipartisan resolution here in 
the House.
    The rest of the Commission's agenda has been no better. 
They have proposed gutting the Lifeline program, which is an 
essential communications tool for millions of Americans, 
including veterans and seniors.
    The Commission has made a series of decisions to encourage 
consolidation among broadcasters--from eliminating the main 
studio rule to reinstating the UHF discount, weakening the Kid-
Vid rules, and proposing to change the Congressionally 
established National Ownership Cap.
    It seems that each of these actions benefits broadcast 
corporations and will leave the public worse off.
    The Chairman has claimed that he cares about rural 
broadband deployment. But the Commission--in its zeal to not 
burden major wireless carriers with reporting where they have 
wireless service deployed--imposed, as part of Mobility Fund 2, 
a bizarre and onerous challenge process that requires rural 
providers to hire people to walk through cornfields and 
backyards trying to prove that communities don't have wireless 
service. And if those companies can't afford to send people 
out, the Commission will assume these communities are 
connected. How does this help the 24 million Americans without 
access to high speed broadband?
    In the same vein, how does making changes to the CBRS band 
to make it less accessible to rural wireless providers--who are 
deploying broadband in hard-to-reach communities--enhance the 
Commission and this Committee's shared goal of closing the 
digital divide? It doesn't.
    This Commission's reckless actions on Broadband Data 
Services and copper retirement were so corporate-friendly that 
NTIA, the White House's Adviser for Telecommunications policy, 
recently said that they remain quote--``concerned, however, 
that streamlined regulatory requirements may place federal 
departments and agencies that rely on services subject to 
discontinuance in the untenable position of losing access to 
critical national security and public safety communications 
functionality''--unquote. Why is the Commission putting the 
convenience of carriers above our nation's national security 
and public safety needs? That's besides the impact these 
policies have on schools, libraries, hospitals, small 
businesses, and competitors that also rely on these services?
    What about Americans' privacy? Senator Wyden's office 
recently found that wireless carriers had been sharing the 
real-time location data of hundreds of millions of cell phones 
with third parties without consent from their users. That 
included sharing information with law enforcement agencies that 
used this data to illicitly look up Americans' location data 
without a warrant or due process.
    We don't even know the scope of this problem, because the 
Commission was asleep at the wheel. I understand that the 
Commission is now investigating, but how were you so in-the-
dark on an abuse that was a widespread industry practice? And 
what confidence can this Committee have that the Commission 
will take appropriate enforcement action against carriers who 
have so recklessly shared our location data without our 
consent?
    Again and again the Commission has failed in its 
obligations to uphold the public interest--and has instead 
repeatedly sided with corporations over consumers. And in 
waiting 9 months to do this oversight hearing, this Committee 
has been complicit in the Commission's actions by turning a 
blind eye and being derelict in our responsibility to provide 
oversight for this agency.
    I will just add, that while I am pleased the Commission 
issued its hearing designation order for the Sinclair merger--
and in doing so acknowledged the near universal concerns about 
Sinclair's honesty and candor--I am extremely concerned that 
the President has waded into this issue. I hope, Chairman Pai, 
that you can assure us the President's tweet last night will 
not cause the Commission to change course or affect the 
proceedings of the Administrative Law Judge?
    Thank you.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Walden, the chairman of the full committee, is 
recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you, Madam Chair. I want to thank 
you for your leadership on these topics. Specifically, I want 
to thank you for highlighting the improving emergency alert and 
9-1-1 services, as well as your outreach to the minority on the 
NTIA reauthorization. We have reauthorized the FCC for the 
first time in what 28 years on the RAY BAUM'S Act. In fact, I 
think that is the last time you were here to testify before us, 
Mr. Chairman.
    The Commission's efforts in wildfire and hurricane 
response, its focus on emergency alerts and implementing 
improved call routing, location accuracy are key priorities for 
all of us. When we reauthorized the FCC for the first time in 
two decades, we appreciated the Commission's input on our work. 
And thanks to the hard work of everyone on the Committee, we 
were able to incorporate provisions from 18 bipartisan bills 
that now form RAY BAUM'S Act that is law. So here we do try to 
work together whenever we can on these issues, 18 bipartisan 
bills, the RAY BAUM'S Act, and I think we did 57 bills on 
opioids, virtually all of which were bipartisan.
    So I look forward to hearing about the FCC's progress in 
implementing this important law, such as the broadcast repack. 
The Commission has been very busy doing good work on the 
repack. We provided an extra billion dollars and fixed some of 
the issues that were there to make sure that translators and FM 
radio stations could get their antennas moved, their equipment 
moved, so we can free up that spectrum.
    And I know the Commission, under your leadership and 
others, successfully pulled off the biggest reverse auction in 
history. You brought to our attention, Mr. Chairman, the issue 
involving the illegality of the funds that came to the 
Commission. You couldn't put them anywhere legally, even though 
your predecessor did. And so we fixed that, and I think that 
was important to take care of.
    I want to thank you for coming out to my district last 
month, and we traveled around, we saw a health clinic and what 
telehealth means. I want to commend the Commission for the 
decision to lift the cap on the rural health telemedicine 
piece. That made a huge and positive difference for our rural 
clinics, when you added $171 million over the $400 million cap. 
You heard it firsthand when you were out there meeting with the 
clinic, and I appreciated the discussion we had with the 
broadcasters, the small ISPs. I think you got a taste for what 
the seventh or eighth largest congressional district in the 
country is, even though we never got out of one county, but we 
were there all day.
    Commissioner O'Rielly and I have recently had conversations 
about the uphill challenge facing our radio industry, which I 
have some experience. My colleagues say I have a great voice 
for radio and a face for it too. They are not very nice people. 
Radio, as you know, was my original story, and my father's as 
well. And I think it is a really important part of our 
country's framework and fabric of sharing information and 
entertainment. That fraternity of voices is sharing the same 
fate as newspapers unfortunately, which never gained the 
benefits of cross-ownership relief under the Commission for 
some 15 years. Entities captured once again by regulations from 
another time. We seem trapped in this constant time warp that 
regulations of the seventies or the 1930s for that matter 
somehow work for the present day or beyond. And some obviously 
want to take us back to the regime of the 1930s.
    We will discuss the changing media landscape today as well. 
Another sector that edge providers are disrupting, which is 
great news. It is yet another example of why I put the call out 
a year ago and then a few months ago inviting the CEOs of some 
of America's greatest innovative technology companies to please 
come here and share with us before this committee their 
concerns and recommendations on a wide range of topics.
    The rhetoric around these issues has become like watching 
the opening of an old television show, waiting to get to the 
main programming. We sit here and listen to the same old 
falsehoods, that we ripped away privacy and net neutrality 
protections, while the reality is all we have done is restore 
bipartisan equilibrium and regulatory framework that existed 
just 3 years ago. Little mom-and-pop startups kind of found 
their way through a light-touch regulatory framework. Though we 
now know those as old Facebook, Google, Netflix--you name it--
all grew up in a light-touch framework, not with the 1930s way 
we regulated telephones.
    In this committee room, we do have the benefit of hearing 
our critics speak out loud, though unlike other corrosive 
voices that seek to destroy our daily discourse.
    As Chairman Pai knows all too well, be fearful if you are 
conservative and let your views be known. I am sorry for what 
you and your family have gone through. Whether you are on the 
right or the left, somewhere here we have to get back our 
humanity where we are not shouting at each other and 
threatening each other, but instead trying to work out our 
differences. We do that a lot in this committee. And we will 
continue to.
    So, with that, Madam Chair, thank you for this hearing.
    And I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Madame Chair,
    I want to thank you for your leadership on these topics. 
Specifically, I want to thank you for highlighting the 
improving emergency alert and 9-1-1 services as well as your 
outreach to the minority on the NTIA reauthorization. We've 
reauthorized the FCC for the first time in 28 years under the 
RAY BAUM'S Act, in fact, I think that's the last time you were 
here to testify before us Mr. Chairman.
    The commission's efforts in wildfire and hurricane 
response, its focus on emergency alerts and implementing 
improved call routing, location accuracy, are key priorities 
for all of us. We reauthorized the FCC for the first time in 
two decades. We appreciated the commissions' input on our work, 
and thanks to the hard work of everyone on the committee, we 
were able to incorporate provisions from 18 bipartisan bills 
that now form RAY BAUM'S Act. That is law. So, here we do try 
to work together whenever we can, on these issues -18 
bipartisan bills, the RAY BAUM'S Act, and I think we did 57 
bills on opioids- virtually all of which were bipartisan.
    I look forward to hearing about the FCC's progress in 
implementing this important law, such as the broadcast repack. 
The commission's been very busy doing good work on the repack. 
We provided an extra billion dollars and fixed some of the 
issues that were there to make sure that translators and FM 
radio stations could get their antennas moved or equipment 
moved so that we can free up that spectrum. I know that the 
commission under your leadership and others successfully pulled 
off the biggest reverse auction in history.
    You brought to our attention, Mr. Chairman, the issue 
involving the illegality of the funds that came to the 
commission--you couldn't put them anywhere legally--even though 
your predecessor did, and so we fixed that. I think that was 
important to take care of. I want to thank you for coming out 
to my district last month, we traveled around, we saw health 
clinics and what telehealth means.
    I want to commend the commission for the decision to lift 
the cap on the rural health telemedicine piece. That made a 
huge and positive difference for our rural clinics, when you 
added $171 million over the $400 million cap. You heard it 
firsthand when you were out there meeting with the clinic, and 
I appreciated the discussion that we had with the broadcasters, 
the small ISPs, and I think you got a taste for what the 7th or 
8th largest congressional district in the country is even 
though we never got out of one county, but we were there all 
day.
    Commissioner O'Rielly and I have recently had conversations 
about the uphill challenge facing our radio industry, which I 
have some experience. Radio, as you know, was my original story 
and my father's as well and I think it's a really important 
part of our country's framework and fabric of sharing 
information and entertainment. That fraternity of voices is 
sharing in the same fate as newspapers, unfortunately, which 
never gained the benefits of cross ownership relief under the 
Commission for some fifteen years--entities captured once again 
by regulations from another time. We seem trapped in this 
constant time warp that regulations of the 1970s, or the 1930s 
for that matter, somehow work for the present day or beyond. 
And some, obviously, wanted to take us back to the regime of 
the 1930s.
    We'll discuss the changing media landscape today as well, 
another sector that `edge providers' are disrupting, which is 
great news. It's yet another example of why I put the call out 
a year ago, and then a few months ago, inviting the CEOs of 
some of America's greatest innovative technology companies to 
please come here and share with us, before this committee, 
their concerns and recommendations on a wide range of topics.
    The rhetoric around these issues have become like watching 
the opening of an old television show, waiting to get to the 
main programming. We sit here and listen to the same old 
falsehoods that we ripped away privacy and net neutrality 
protections, while the reality is, all we have done is restore 
a bipartisan equilibrium and regulatory framework that existed 
just three years ago.
    Old ``Mom and Pop'' startups kind of found their way 
through a lighttouch regulatory framework. We would now know 
those as, oh, Facebook, Google, Netflix--you name it--all grew 
up in a light touch framework, not with the 1930s way we 
regulated telephones. In this committee room, we do have the 
benefit of hearing our critics speak out loud, though, unlike 
other corrosive voices that seek to destroy our daily 
discourse. As Chairman Pai knows all too well, be fearful if 
you are a conservative and let your views be known.
    I'm sorry for what you and your family's gone through. 
Whether you're on the right or the left, somewhere here we have 
to get back our humanity where we're not shouting at each other 
and threatening each other, but instead trying to work out our 
differences. We do that a lot in this committee and we will 
continue to.
    So, with that, Madame Chair, thank you for this hearing, 
and I yield back the balance of my time.

    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman.
    The Federal Communications Commission is an independent 
agency created by and accountable to Congress. Congress gave 
the agency broad powers and the responsibility to protect 
consumers, advance competition, promote universal service at 
reasonable rates, and enhance public safety. In other words, to 
work in the public interest. As the FCC's oversight committee, 
it is our duty to ensure the Commission's actions advance those 
goals and hold the Chairman and Commissioners accountable when 
the agency does not.
    Unfortunately, the Republican majority of this committee 
has been unwilling to follow through on its promise to hold 
quarterly oversight hearings with the FCC. This is the first 
oversight hearing in 9 months and only the third this Congress.
    During that time, the Commission has repeatedly acted 
contrary to its core mission. In a series of partisan votes, 
the agency dismantled protections for consumers and initiated 
numerous proceedings designed to benefit big corporations to 
the detriment of working class Americans and local communities.
    By far the most high-profile and controversial decision was 
the elimination of the FCC's net neutrality rules. Those 
safeguards protected consumers, protected small businesses, and 
protected free speech. Chairman Pai ignored the vast majority 
of the 24 million comments from individuals and businesses 
supporting net neutrality.
    It is not surprising that Chairman Pai's order faces 
massive consumer opposition. Public outrage from startup 
companies, working families, educators, healthcare 
professionals, veterans and so many others at townhalls and 
community centers have driven congressional action. In May, the 
Republican-controlled Senate passed legislation that would 
reinstate net neutrality. Ranking Member Doyle is now 
championing that legislation here in the House. And it is not 
too late to stand with the American people and restore net 
neutrality. And I urge Speaker Ryan to bring this legislation 
up for a vote and stand with the bipartisan Members that have 
signed the petition to force one.
    Sadly, the FCC's disregard for consumers does not end 
there. At a time when other agencies are separating children 
from their families at our borders and violence in schools is 
far too commonplace, the Trump FCC wants to roll back rules 
that limit advertising to children and requires stations to air 
educational programming for kids. And this doesn't make sense. 
If the agency was serious about focusing on consumers, it would 
want to help parents searching for quality educational 
programming and shield children, not make them easier targets 
for big business.
    In another example of siding with corporations over 
consumers, Chairman Pai's changes of the FCC's media ownership 
protections undermine competition, localism, and diverse 
viewpoints in favor of corporate consolidation. While the 
Commission rightfully acknowledged that Sinclair's proposed 
merger and related divestitures may violate the law, the 
rollback of the media ownership rules opens the door for the 
next Sinclair.
    Universal service, critical to the most vulnerable 
populations, also has been undermined under Chairman Pai's 
leadership. The FCC's proposal to revise the Lifeline Program 
is a particularly egregious example. If adopted, this proposal 
could cut phone or internet service for approximately 8.3 
million people. These are single mothers struggling to get by, 
veterans searching for jobs, and seniors on fixed incomes. They 
are at risk of being left behind. The FCC should be looking for 
ways to help these struggling participants in our economy and 
community and not just cut them off.
    And, finally, while the Commission has worked to update the 
Emergency Alert System, advance Next Generation 9-1-1, and 
implement the SANDy Act, it has fallen short in making 
cybersecurity a priority. The agency has retreated from the 
efforts of previous administrations at a time when cyber 
criminals, foreign and domestic, are becoming more aggressive.
    Today's communications networks connect businesses, 
consumers, and government agencies. And these networks drive a 
modern economy. But those same networks provide a target for 
cyber attacks by criminal gangs and nation-states. As the 
agency charged with promoting public safety, the FCC should 
work with and encourage companies to develop best practices, 
address vulnerabilities, and prepare for cybersecurity attacks.
    Since the FCC is shirking its responsibility, Congress 
should be conducting more oversight in the future.
    So I want to thank the Chairman and Commissioners for 
appearing before us today and look forward to your testimony.
    And I yield back, Madam Chair.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    The Federal Communications Commission is an independent 
agency created by and accountable to Congress. Congress gave 
the agency broad powers and a responsibility to protect 
consumers, advance competition, promote universal service at 
reasonable rates, and enhance public safety. In other words, to 
work in the public interest. As the FCC's oversight committee, 
it is our duty to ensure the Commission's actions advance those 
goals and hold the Chairman and Commissioners accountable when 
the agency does not.
    Unfortunately, the Republican majority of this committee 
has been unwilling to follow through on its promise to hold 
quarterly oversight hearings with the FCC. This is the first 
oversight hearing in nine months, and only the third this 
Congress. That is an embarrassment.
    During that time, the Commission has repeatedly acted 
contrary to its core mission. In a series of partisan votes, 
the agency dismantled protections for consumers and initiated 
numerous proceedings designed to benefit big corporations to 
the detriment of working-class Americans and local communities.
    By far the most high profile and controversial decision was 
the elimination of the FCC's net neutrality rules. Those 
safeguards protected consumers, protected small businesses, and 
protected free speech. Chairman Pai ignored the vast majority 
of the 24 million comments from individuals and businesses 
supporting net neutrality.
    It's not surprising that Chairman Pai's order faces massive 
consumer opposition. Public outrage from start-up companies, 
working families, educators, health care professionals, 
veterans, and so many others at townhalls and community centers 
have driven Congressional action. In May, the Republican-
controlled Senate passed legislation that would reinstate net 
neutrality. Ranking Member Doyle is now championing that 
legislation here in the House. It is not too late to stand with 
the American people and restore net neutrality. I urge Speaker 
Ryan to bring this legislation up for a vote and stand with the 
bipartisan Members that have signed a petition to force one.
    Sadly, the FCC's disregard for consumers does not end 
there. At a time when other agencies are separating children 
from their families at our borders and violence at schools is 
far too commonplace, the Trump FCC wants to roll back rules 
that limit advertising to children and require stations to air 
educational programming for kids. This does not make sense. If 
the agency was serious about focusing on consumers, it would 
want to help parents searching for quality educational 
programming and shield children, not make them easier targets 
for big business.
    In another example of siding with corporations over 
consumers, Chairman Pai's changes to the FCC's media ownership 
protections undermine competition, localism, and diverse 
viewpoints in favor of corporate consolidation.
    While the Commission rightfully acknowledged that 
Sinclair's proposed merger and related divestures may violate 
the law, the rollback of the media ownership rules opens the 
door for the next Sinclair.
    Universal service-critical to the most vulnerable 
populations-also has been undermined under Chairman Pai's 
leadership. The FCC's proposal to revise the Lifeline program 
is a particularly egregious example. If adopted, this proposal 
could cut phone or internet service for approximately 8.3 
million people. These are single mothers struggling to get by, 
veterans searching for jobs, and seniors on fixed-incomes. They 
are at risk of being left behind. The FCC should be looking for 
ways to help those struggling participate in our economy and 
community--not cut them off.
    Finally, while the Commission has worked to update the 
emergency alert system, advance next generation 9-1-1, and 
implement the SANDy Act, it has fallen short in making 
cybersecurity a priority. The agency has retreated from the 
efforts of previous Administrations at a time when cyber 
criminals--foreign and domestic--are becoming more aggressive.
    Today's communications networks connect businesses, 
consumers, and government agencies. These networks drive the 
modern economy. But those same networks provide a target for 
cyber-attacks by criminal gangs and nation states. As the 
agency charged with promoting public safety, the FCC should 
work with and encourage companies to develop best practices, 
address vulnerabilities, and prepare for cybersecurity attacks.
    Since the FCC is shirking its responsibilities, Congress 
should be conducting more oversight in the future.
    I thank the Chairman and Commissioners for appearing before 
us today and look forward to your testimony, and I yield back.

    Mrs. Blackburn. The gentleman yields back.
    And that concludes the member opening statements.
    I remind all members that, pursuant to committee rules, all 
member's opening statements will be made a part of the record.
    And we are going to try to get through our opening 
statements before votes are called around 1:40. So I want to 
thank all of you for being here today. Today's witnesses will 
have the opportunity to give their opening statements. It will 
be followed by a round of questions from members. Our panel 
today includes Chairman Pai, Commissioner O'Rielly, 
Commissioner Carr, and Commissioner Rosenworcel. We appreciate 
that you are here and that your testimony was prepared and 
submitted on time. We will go in order of seniority, which is 
the tradition in this subcommittee, and I begin with you today, 
Chairman Pai. You are recognized for 5 minutes for an opening 
statement.

   STATEMENTS OF AJIT PAI, CHAIRMAN, FEDERAL COMMUNICATIONS 
      COMMISSION; MICHAEL O'RIELLY, COMMISSIONER, FEDERAL 
COMMUNICATIONS COMMISSION; BRENDAN CARR, COMMISSIONER, FEDERAL 
      COMMUNICATIONS COMMISSION; AND JESSICA ROSENWORCEL, 
        COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

                     STATEMENT OF AJIT PAI

    Mr. Pai. Thank you, Chairman Blackburn, Ranking Member 
Doyle, and members of the subcommittee, thank you for holding 
this hearing. I appreciate this chance to update you on the 
FCC's work. But before I do, I would like to thank this 
subcommittee for its vital assistance. The RAY BAUM'S Act of 
2018, which originated in this subcommittee, contained a host 
of provisions that are already having a positive impact on the 
FCC's work. Perhaps most importantly, it corrected a technical 
problem involving deposits for spectrum auctions. With this fix 
in place, the FCC is moving forward aggressively to hold 
auctions and move a substantial amount of high band spectrum 
into the commercial marketplace.
    This year, we are commencing the 28 gigahertz band option, 
followed immediately by an option of the 24 gigahertz band. In 
the second half of 2019, we intend to hold an auction of 
spectrum at 37, 39, and 47 gigahertz bands. Combined, these 
options will make almost 5 gigahertz of spectrum available and 
advanced America's global leadership in 5G, the next generation 
of wireless connectivity. None of this would have been possible 
without the subcommittee's leadership.
    The FCC has also benefited from the subcommittee's support 
in carrying out our top priority, closing the digital divide. 
Yesterday, the FCC kicked off its Connect America Fund Phase II 
reverse auction, which will provide up to $2 billion over the 
next decade to bring fixed broadband to unserved areas across 
rural America.
    Earlier this year, we dedicated $500 million in additional 
funding to assist small carriers deploying rural broadband. We 
proposed over $1 billion to restore and improve communications 
networks in Puerto Rico and the Virgin Islands following the 
devastating 2017 hurricane season. And we boosted 
telemedicine's promise by extending funding in our rural 
healthcare program by 43 percent, or $171 million.
    Funding aside, we are also modernizing our rules, cutting 
through the regulatory red tape and making it easier for 
broadband providers to invest in next generation networks. We 
have exempted small cells from the Federal historic 
preservation and environmental review processes that were 
designed for traditional cell towers. We have updated our 
Business Data Services regulations. We have reformed our 
network transition rules to make it easier for companies to 
upgrade from the fading networks of yesterday toward the 
resilient networks of tomorrow. We are making it easier and 
cheaper for providers, including competitive entrants, to get 
access to utility poles with One Touch Make Ready rules as 
proposed by our Broadband Deployment Advisory Committee. And we 
have returned to the successful light-touch regulatory 
framework under which the internet flourished in the United 
States from 1996 until 2015.
    I am pleased to report that our policies to promote 
broadband deployment are working. According to a recent study 
in 2017, more commercial buildings in the United States added 
fiber connections than in any year since at least 2004. And 
according to figures released just today, it appears that 
broadband network investment in the United States increased by 
between $1.5 billion and $3 billion in 2017, reversing the 
declines that occurred during the last 2 years of the prior 
Administration. This increased investment is having a tangible 
and positive impact on American consumers.
    I will give you just one example. VTel is a small internet 
service provider based in Springfield, Vermont. The company 
reported recently that because of recent FCC policies it 
``committed $4 million to purchase equipment and services to 
upgrade its LTE core to enable voice roaming and remedy Wi-Fi 
calling to all of Vermont rural subscribers and to 
simultaneously begin rolling out faster mobile broadband that 
will start our transition to 5G.'' VTel concludes, and I quote 
again, ``it is quite optimistic about the future, and the 
current FCC is a significant reason for our optimism.''
    In short, we are on the right track, and I am confident 
that we will continue to see more positive results in the 
months ahead as more of our policies take hold.
    I am also pleased by the amount of bipartisan cooperation 
we have seen at the FCC. This year, for example, fewer than 6 
percent, or 1 in 16, of our over 100 votes have been party 
line. Of course, there will be times when we disagree. But my 
hope is the debate will be based on facts, consistent with law, 
and grounded in reality.
    I will close on a personal note. I love this agency. I have 
worked at the FCC for most of the past 11 years, first as a 
staffer and then as an appointee. It has been a tremendous 
honor to lead this commission over the last 18 months. A major 
reason why is because I get to work alongside and have gotten 
to know the FCC's fantastic staff, those who race toward 
hurricane-hit areas to help, those who strive to make 
technologies available to Americans with disabilities, those 
who devote countless hours to representing our country abroad, 
and more.
    As for me, the issues I have faced are challenging. The 
decisions I have made haven't always been easy, but so long as 
I have the privilege of serving as the Chairman of the FCC, I 
am going to find the facts, I am going to follow the law, and I 
am going to call 'em like I see 'em.
    Chairman Blackburn, Ranking Member Doyle, members of the 
subcommittee, thank you once again for holding this hearing. I 
look forward to answering your questions and to continuing to 
work with you and your staffs in the time to come.
    [The prepared statement of Mr. Pai follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. O'Rielly, you are recognized.

                 STATEMENT OF MICHAEL O'RIELLY

    Mr. O'Rielly. Thank you. My thanks to Chairman Blackburn, 
Ranking Member Doyle, and the members of the subcommittee for 
the honor to engage with you on so many important 
communications issues. At the outset, I would like to thank 
Representatives Lance, Tonko, and Collins and their cosponsors, 
many on the subcommittee, and the chairman and ranking member 
for their leadership on the PIRATE Act.
    Under Chairman Pai's leadership, the Commission has made 
great strides in terminating unlawful pirate radioactivity, but 
without additional tools provided by Congress, we can only go 
so far to eliminate this harmful practice.
    Today, I would like to highlight a few critical issues that 
have been a focus of mine. First, I firmly believe that the 
ongoing problem of 9-1-1 feed diversion by certain States and 
territories must end once and for all. Such diversion, beyond 
deceiving ratepayers, has real consequences for the public 
safety community and the American people in need of critical 
emergency assistance at some of the darkest moments in their 
lives.
    The Commission's ninth annual report to this committee, 
which relied on self-reporting by States and territories, 
showed five States diverted almost $130 million away from 9-1-1 
enhancements and towards other unrelated purposes. Moreover, 
seven States and territories figured out that, instead of being 
labeled a diverter, they would rather just not submit the 
necessary paperwork. Take New York, a previously self-admitted 
diverter, which failed to respond to the Commission's data 
collection inquiries, but sufficient public record information 
supported a finding that it is a substantial diverter of funds 
for non-public safety purposes.
    There is some good news to report in that several States 
and territories have clarified their reported diversion or made 
commitments to prevent a reoccurrence. These include Illinois, 
New Mexico, Oklahoma, and Puerto Rico. However, not every State 
or territory has been a success story. Accordingly, I suggest 
additional Federal action, such as legislation proposed by 
Representatives Collins, Eshoo, and Lance, is necessary to 
address recalcitrant States and territories, like New York, New 
Jersey, Rhode Island and Guam. Identifying and shaming these 
States has not adequately worked.
    Second, the Commission is focused on taking every necessary 
and appropriate step to provide all Americans the opportunity 
to access broadband services. At the same time, the 
Commission's efforts should be examined in parallel with 
programs by other Federal agencies. Congress recently allocated 
as part of last year's Consolidated Appropriations Act 2018 an 
additional $600 million for a new broadband pilot program to be 
administered by the Rural Utility Service, or RUS, and 
additional broadband funding is being considered as part of the 
Senate and House farm bills.
    While efforts to provide RUS with new Federal money are 
commendable, there is a potential for certain problems to 
arise. In particular, there is a significant possibility that 
RUS funding could be used to subsidize areas that already have 
broadband or support providers in competition with those that 
currently receive FCC subsidies or may have build-out plans 
that require them to provide service in the future. 
Additionally, the RUS program could be used to allow providers 
to serve favored institutions without serving more costly 
nearby areas.
    Fundamentally, Federal funding should be targeted to 
addressing the $14 million plus Americans without any broadband 
today. I would humbly suggest that only the proper direction 
from the right leadership such as this subcommittee can prevent 
a bad outcome. As Congress concludes the farm bill this fall, I 
hope you will consider additional safeguards, including strict 
prohibitions on duplication with other existing programs, 
alignment of speed requirements, and a focus on the truly 
unserved.
    Lastly, turning to spectrum policy, the Commission has been 
hard at work ensuring that sufficient spectrum is available for 
next generation wireless services. I recognized years ago that 
there was a need for a solid mid-band play for wireless 
carriers to offer 5G services both domestically and 
internationally. The 3.7 to 4.2 gigahertz band, or C-band 
downlink, is an attractive option for this purpose, as it 
provides significant continuous spectrum, and the largest 
satellite operators are receptive to reducing their spectrum 
footprint using a market-based spectrum reallocation approach. 
I also agree with Representatives Guthrie and Matsui, who 
recently noted to the Commission that the 6 gigahertz band is a 
necessary ingredient to address the need for more unlicensed 
spectrum and must be part of our final rules.
    With that, I want to thank the subcommittee for holding 
this hearing. And I look forward to answering any questions you 
may have.
    [The prepared statement of Mr. O'Rielly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Carr, you are recognized.

                   STATEMENT OF BRENDAN CARR

    Mr. Carr. Thank you.
    Chairman Blackburn, Ranking Member Doyle, distinguished 
members of the subcommittee, thank you for the invitation to 
testify. I have had the honor of working with you and your 
staffs as a commissioner for nearly a year. It has been a 
tremendously rewarding and productive time. I am proud of the 
work that the agency has accomplished. And I want to commend 
this subcommittee on its own notable achievements, from 
identifying additional spectrum in the RAY BAUM'S Act, 
enhancing public safety through the SANDy Act, to encouraging 
broadband deployment, including through the Precision Ag Act.
    At the FCC, I focused on work we can do to help bring more 
broadband to more Americans. This has meant working closely 
with my colleagues at the Commission, but it has also meant 
spending time outside of D.C. to see firsthand how our policies 
impact communities across the country.
    Over the past 11 months, I have visited 17 States. I have 
benefited from perspectives gained on the road, whether at a 
townhall in Chelsea, Michigan; a roundtable in Stanton, 
Nebraska; or at the kitchen table of family that wanted better, 
faster broadband. I've also spent time with the construction 
crews that are doing the hard, often gritty, work that goes 
into deploying broadband networks. In fact, in Arcadia, 
Indiana, Congresswoman Susan Brooks introduced me to two 
Hoosiers, Mark and Scott; they are brothers. They run a small 
fixed wireless provider. They are a scrappy bunch, having 
climbed everything from barns to grain elevators to attach the 
antennas needed to bring broadband to Indiana's farmlands.
    I have seen similar efforts in communities across the 
country. And it only underscores why the work of this 
subcommittee and the FCC is so important. We want every 
community to get a fair shot at next generation connectivity. 
One year ago, I noted the challenge we faced in extending 
American leadership in wireless as we moved from 4G to 5G 
networks. I testified about the need for the FCC to focus on 
two things: spectrum and infrastructure. The Commission has 
made substantial progress on both.
    I want to focus this afternoon on the second part, on 
infrastructure. I appreciate that Chairman Pai asked me to lead 
the FCC's efforts on wireless infrastructure. We have already 
taken several steps to ensure our regulatory structures are 5G 
ready. As you know, 5G networks are going to look very 
different than the 3G and 4G deployments of the past. And the 
regulatory framework that worked for 100-foot towers won't work 
for new small cell deployments.
    So we are working to modernize our approach. In March, we 
exempted small cells from certain Federal review procedures 
designed for those large 100-foot towers. This one step is 
expected to cut about 30 percent of the total cost of deploying 
small cells. This reform can help flip the business case for 
thousands of communities, particularly in rural areas that 
might otherwise miss out on next gen connectivity.
    And one place where increased deployment will pay off is in 
healthcare. For years, the FCC has been supporting broadband 
deployment to healthcare facilities, but there is a new trend 
in telehealth, a trend toward connected care everywhere. The 
delivery of high-tech, high-quality care is no longer limited 
to the confines of connected brick-and-mortar facilities. With 
remote patient monitoring and mobile health applications, we 
now have the technology to deliver healthcare directly to 
patients, regardless of where they are located.
    I saw this 2 weeks ago in the Mississippi Delta, which is 
ground zero for the country's diabetes epidemic. The delta is 
also a place where connected care is already making a 
difference. It is where I met Ms. Annie. She noticed the first 
signs of diabetes when she woke up one morning with blurred 
vision. After seeing a little progress with traditional care 
options, Ms. Annie signed up for a remote patient monitoring 
program. She showed me the iPad and the Bluetooth-enabled blood 
glucose monitor that she uses to track her care on a daily 
basis. She can check her blood sugar levels, and an app gives 
her instant feedback, including the steps she can take that day 
to stay healthy. With this technology, Ms. Annie's A1C levels 
have gone down, and she says she has never felt better. And 
research backs up Ms. Annie's results, showing significant cost 
savings and improved outcomes with connected care. So we should 
align public policy in support of this movement in telehealth.
    That is why I am glad Chairman Pai asked me to lead the 
FCC's new telehealth initiative, which we will consider at our 
August meeting. The connected care pilot program aims to 
provide up to $100 million to support connected care 
deployments for low-income patients.
    I look forward to working with all stakeholders as we seek 
comment on establishing the program. Chairman Blackburn, 
Ranking Member Doyle, members of this committee, thank you 
again for holding this hearing. I welcome your questions.
    [The prepared statement of Mr. Carr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Ms. Rosenworcel, you are recognized.

                STATEMENT OF JESSICA ROSENWORCEL

    Ms. Rosenworcel. Good afternoon, Chairman Blackburn, 
Ranking Member Doyle, and the other members of this 
subcommittee. Thank you for the opportunity to appear before 
you today. I believe the future belongs to the connected. No 
matter who you are or where you live in this country, you need 
access to modern communications to have a fair shot at 21st 
century success. Clearing the way for this connected future 
should be at the heart of everything we do at the Federal 
Communications Commission.
    It has been 9 months to the day since we last appeared 
before you for an oversight hearing. Nine months is a long 
time. It is the equivalent of a school year so let me offer the 
equivalent of a quick year-end report. Too many Americans still 
lack access to broadband. Let me put a number on it. Right now, 
24 million Americans do not have access to high-speed service. 
That is not acceptable. We need to do better. Too often during 
the last 9 months, the agency acted at the behest of corporate 
forces that surround it, shortchanging the American people. You 
can see that clearly with our rollback of net neutrality. You 
see it too with our efforts to foster the deployment of new 
networks but failure to fully engage those who need a voice in 
our policies, the cities and towns that should be our partner 
in the process, the Tribal communities that are entitled to 
government-to-government consultation, and the Department of 
Commerce, which just last week expressed concern about how our 
rushed reform could harm national security and public safety 
services.
    Likewise, you see it in proposed reforms that undermine our 
lifeline program and the populations that rely on it, including 
those served by domestic violence shelters, military veterans, 
homeless youth, and the residents of Puerto Rico, who are still 
recovering from a harrowing storm and a grave humanitarian 
crisis.
    Too often our procedures fall short of what good governance 
requires. Our mapping practices for broadband do not accurately 
reflect the state of connectivity on the ground. Our claim that 
the agency suffered a distributed denial of service attack 
following John Oliver's report on our net neutrality plan is 
just not credible.
    In the meantime, the agency has ignored the fact that this 
public docket is flooded with fraud, including half a million 
comments from Russia and 2 million individuals with stolen 
identities. I believe these things need to be fixed.
    So many people think that Washington is rigged against 
them. It saddens me when, on too many occasions during the last 
9 months, this agency proved them right. But good report cards 
do not only look to the past; they also offer an eye to the 
future and take on what is possible.
    I believe at this table, there is a desire to extend the 
reach of broadband service, lead the world in 5G wireless 
deployment, and bring the opportunities of the digital age to 
more people and more places. I see this same desire everywhere 
I go. In the last few weeks, I have been in rural New Mexico 
and urban New York. In both places, I have visited schools with 
students who lack broadband at home and, as a result, struggle 
with nightly school work. There are 12 million children in 
every State across the country with this problem. They fall 
into a homework gap that is the cruelest part of our digital 
divide.
    But I also saw that these communities are trying to address 
their gap so that every student has a decent chance at digital 
age success. They are experimenting with connective school 
busses. They are looking at loaning out hotspots in library, 
and they are exploring public Wi-Fi in their communities. They 
deserve our support and a plan to address the homework gap so 
that know child is left offline. I still believe it is within 
our capability to produce one.
    Finally, I would be remiss if I did not mention the 
agency's recent decision regarding Sinclair broadcasting. When 
I last appeared before you 9 months ago, I alone expressed 
concern about how the agency had bent and twisted so many of 
its media policies to serve the business plans of this one 
company. This changed last week when the agency adopted an 
order designating the proposed Sinclair Tribune transaction for 
hearing. I want to thank my colleagues and the chairman in 
particular for the effort to reach consensus on this matter.
    Let me close by saying thank you for having me at this 
hearing, and I look forward to any questions you may have.
    [The prepared statement of Ms. Rosenworcel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank each of you for your testimony, and 
we are now going to move into our questions. And I am going to 
begin and recognize myself for 5 minutes for questions.
    And, Chairman Pai, I am going to come to you. Public safety 
is something that we are focused on in the emergency alerts and 
our 9-1-1 systems. As you know, our Ranking Member Pallone's 
SANDy Act was included in the RAY BAUM'S Act, and it is a good 
solid bipartisan initiative to help with Wi-Fi resources, 
bringing those to bear during an emergency. And while the EAS 
system is typically the primary tool, we saw the resiliency of 
cellular infrastructure in the aftermath of Hurricane Harvey 
and the widespread use of the WEA alerts. And how will the 
addition of opening up Wi-Fi access points in times of 
emergency in addition to carrier location information and other 
inputs help a device create more precise location information 
to better enable our first responders to reach those that are 
in need of that emergency help?
    Mr. Pai. Thank you, Chairman Blackburn, for the question, 
and to you and to Ranking Member Pallone for your leadership on 
that legislation. One of the most critical elements of 
information that a first responder needs when a 9-1-1 call is 
placed is where is the caller. And I think that the addition of 
more Wi-Fi access points could help introduce even more 
detailed granular information about where that caller is. In 
combination with GPS information and cellular information, Wi-
Fi access points can give a more textured view to 9-1-1 call 
centers and help them pinpoint exactly where somebody is to be 
able dispatch help quicker.
    Additionally, I think it is interesting that a lot of 
companies are thinking very forward, as is this subcommittee. 
For example, Apple recently announced in iOS 12 that it would 
incorporate the technology from a small startup called 
RapidSOS. One of my predecessors, Chairman Dennis Patrick, has 
talked about the fact that this technology could use things 
like Wi-Fi access points and other information to more 
accurately and quickly target people who are in a situation of 
need.
    Mrs. Blackburn. And then looking at States and localities 
using the WEA system, you think this is going to help----
    Mr. Pai. Absolutely.
    Mrs. Blackburn [continuing]. Encourage that? When you think 
about needing that help that quickly and responders who are 
working so diligently to get resources to people, one of the 
things is we have worked on this issue--and Ms. Brooks has 
worked on it some too with the Next Gen 9-1-1--is making 
certain that it is more reliable and more widely used. So----
    Mr. Pai. Absolutely. I will give one quick example of why 
that is so. Recently, I visited the D.C. Office of 
Communications that handles 9-1-1 calls that are common to the 
District. And Karima Holmes, the director, told me that, every 
year, the District of Columbia gets approximately 10,000 
emergency calls that are more properly routed to Maryland, and 
vice versa, Maryland gets 10,000 calls or more properly routed 
to the District because the caller is very near that border.
    Imagine ubiquitous Wi-Fi access points that could allow 
emergency responders to know when they have received that call 
in the 9-1-1 call center: OK, we are getting a call from the 
District. We don't waste precious seconds trying to figure out 
exactly which jurisdiction needs to get that call. That could 
really save lives in a pinch.
    Mrs. Blackburn. Commissioner Rosenworcel, I want to come to 
you on something. As you know, I have worked for years on the 
privacy issue, and I assume that you saw the letters that we 
sent to LocationSmart and Securus and 3C Interactive inquiring 
about the reports of the unauthorized disclosure of wireless 
subscribers' real-time location information. And I am pleased 
that you all are investigating this as well as we all are 
concerned about protecting consumer privacy. And on this 
broader topic, last night, I received a letter from our friends 
at the Electronic Privacy Information Center, and to quote from 
the letter, it says: It is clear that the FCC has the ability 
to enact internet privacy rules. The FCC has the authority to 
regulate companies such as Facebook and Google through 
ancillary jurisdiction.
    Do you agree with that assertion?
    Ms. Rosenworcel. No, I don't agree with that assertion.
    Mrs. Blackburn. OK. Do you believe that section 706 of the 
Telecommunications Act, or any other provision, gives the 
authority to the FCC to also regulate edge providers?
    Ms. Rosenworcel. I don't believe it clearly gives us that 
authority, no.
    Mrs. Blackburn. You do not. Thank you.
    The gentlelady yields back, and I yield back, and I 
recognize Mr. Doyle for 5 minute.
    Mr. Doyle. Thank you, Madam Chair.
    Welcome back. It is good to see all of you.
    I want to talk a little bit about rural broadband. The 
Commission received a letter on July 23rd from a group of 182 
fixed wireless providers regarding the CBRS band. And they 
noted that, ``Without census track sized licenses, we will have 
virtually no ability to acquire protected spectrum in this 
band.'' That would be an intolerable outcome that would harm 
our rural broadband businesses and inhibit our ability to grow. 
But worse, it would harm the millions of consumers for whom 
mid-band spectrum is the key to high-speed fixed broadband 
access.
    I would note that, Chairman Pai, you tweeted that your 
parents are served by Wave Wireless, and, Commissioner Carr, in 
your testimony you referred to the good work of On-Ramp Indiana 
that serves Ms. Brooks' district. Both of these companies were 
part of the 182 companies that sent you that letter. So I would 
like to ask each of the Commissioners--and this is just a 
simple yes-or-no question--will you commit to maintaining 
census track licenses in this band?
    Mr. Pai. Ranking Member Doyle, I have delegated this issue 
to Commissioner O'Rielly. He has recently provided a lot of 
analysis on this question so I don't want to presuppose what 
direction he wants to recommend for the full commission.
    Mr. Doyle. As chair of the Commission, would you commit to 
having census track size license?
    Mr. Pai. Frankly, Member Doyle, we don't want to presuppose 
the results. We are still studying the issue. And I am looking 
at the issue along with Commissioner O'Rielly.
    Mr. Doyle. OK. Commissioner O'Rielly, he has dumped it on 
you, so what do you say?
    Mr. O'Rielly. No.
    Mr. Doyle. You do not support doing--I like that direct 
answer. I don't agree with it, but I like it.
    Yes, Commissioner Carr?
    Mr. Carr. I haven't made my decision up yet on how to cast 
a vote in this proceeding.
    Mr. Doyle. Thank you.
    Ms. Rosenworcel. Yes, we are going to need smaller license 
sizes if we want wireless providers to serve rural America with 
this band.
    Mr. Doyle. So one yes, one undecided, one no, and one 
abstention or----
    Mr. Pai. I am still looking at the issue, Congressman.
    Mr. Doyle. Undecided.
    Mr. Pai. We haven't reached the end points. We are still in 
the sixth or seventh inning.
    Mr. Doyle. OK. Chairman Pai, I mentioned in my opening 
statement that many stakeholders, including the Federal 
Government, are very concerned about your plans regarding the 
discontinuance of service and changes to the BDS market could 
place our national security and public safety operations in an 
untenable position. Are you concerned that, in addition to the 
potential loss of service, that some BDS customers are telling 
us that they have had their bills increase by 175 percent? I am 
kind of concerned that it is not only putting the carriers 
interest over the public's, but it is endangering our public 
safety, our national security, and leading to the huge rate 
increases for people to have this service. How do you respond 
to that?
    Mr. Pai. Sorry, Congressman, I was thrown off there.
    Mr. Doyle. That was strange; is that a phone ring?
    Voice. It is a rattlesnake.
    Mrs. Blackburn. It is Mr. Olson trying to play with new 
technology in the Communications and Technology Committee.
    Mr. Olson. Guilty as charged.
    Mrs. Blackburn. The gentleman apologizes. It is accepted.
    And, Mr. Doyle, you are reclaiming your time.
    Mr. Doyle. Thank you, Madam Chair.
    Would you address some of the concerns that we are hearing 
about the BDS market?
    Mr. Pai. Sure, and I will try to address those in turn. So, 
with respect to NTIA, we certainly welcome the submission. That 
is part of the reason why we have an open notice and comment 
process to take public input. If you look at the overall tenor 
of the NTIA letter, it is quite supportive of our approach, 
unless we do want to take those concerns into account.
    Secondly, with respect to BDS overall, the price increases 
you described are precisely the reason why it was important to 
us in the BDS order last year to preserve FCC authority under 
section 201 and 202, as well as the ability of private 
companies to complain directly to the FCC under section 208. We 
will adjudicate any complaints we get about price 
discrimination that might be in violation of our rules.
    Thirdly, if you look at the overall gist of our BDS 
approach, the notion is that price regulation deters fiber 
deployment. It does that for two different reasons. Number one, 
if you are an owner of that infrastructure and there is heavy 
privacy regulation, you would have less incentive to build out 
additional infrastructure. Why would you? It is price 
regulated. Similarly, if you are a competitive entrant relying 
on that infrastructure, you would be less likely to build that 
infrastructure of your own. Why would you? The FCC has put a 
finger on the scale in terms of price regulation.
    Our goal is to preserve that ability of competitive 
entrants--people have complained to the FCC about unreasonable 
charges--while also promoting an incentive to get more fiber 
out. And the results speak for themselves. If you looked at my 
opening statement, for the first time, over 50 percent of mid 
and large size commercial buildings in the United States are 
connected with fiber. We want every one of those buildings to 
be connected with fiber. We think this light-touch, market-
based approach that started with Chairman Kennard back in the 
late 1990s is the right way to go.
    Mr. Doyle. Let me ask you one last question, Chairman Pai, 
you are aware of Senator Wyden's letter to the FCC regarding 
the real-time location data and the company Securus 
Technologies.
    Mr. Pai. Yes.
    Mr. Doyle. On May 18th, Senator Wyden called on you to 
recuse yourself from the investigation based on your past work 
representing Securus. Have you recused yourself?
    Mr. Pai. I have not, in consultation with the Office of 
General Counsel.
    Mr. Doyle. And that was my next question, did you get an 
opinion from the FCC ethics office as to whether or not you 
should recuse yourself?
    Mr. Pai. Yes, I did.
    Mr. Doyle. OK. Thank you.
    Mrs. Blackburn. The gentleman's time has expired.
    Mr. Walden, you are recognized for 5 minutes.
    Mr. Walden. Thank you, Madam Chair.
    I appreciate again the Commissioners being here. And I 
believe we have sent a letter as well to companies regarding 
the same issue. Obviously, we all care about privacy and about 
data location issues, something we have been pursuing for some 
time.
    Chairman Pai, let's switch to the C-band. It is our 
understanding the National Public Radio, commercial 
broadcasters, and cable companies depend on it for content 
distribution to about 100 million households. That is obviously 
a lot of people in every State, probably every congressional 
district. But one of the challenges to ensure noninterference 
with C-band downlinks is to know the exact location of hundreds 
and potentially thousands of unregistered receive-only Earth 
stations. What is the Commission doing to identify the location 
of these Earth stations and ensure they are protected from 
potential harmful interference? And what steps is the 
Commission taking to balance these two goals of ensuring we win 
the race to 5G, which requires for mid-band spectrum, and the 
protection of the downlink the broadcasters and cable companies 
depend upon?
    Mr. Pai. Thank you for the question, Chairman Walden. And I 
think you have put your finger on the two goals that we need to 
pair in this proceeding. And we tried to address the concern 
you have identified about the need to figure out where the 
stations are in a few different ways. For example, we have 
reduced the fees that are required to file some of these 
reports. Additionally, we have extended the timeframe by 90 
days. So I believe October 17th now is when the deadline is for 
reporting.
    In addition to that, we recognize that some of these 
entities are smaller; they might not have the resources to 
compile a full study that is required traditionally under FCC 
rules. And so it is important to me to streamline that process 
to allow them to get as much information as they can into the 
record.
    At the end of day, we are confident that steps like these 
will enable us to get a robust level of participation from 
those entities and enable us thereafter to make a fully 
informed decision about the appropriate disposition of the C-
band.
    Mr. Walden. All right. Thank you. As you have heard from 
many members on both sides of the aisle up here, we need to do 
more as a country to connect each other with high-speed data 
and broadband connections. So what can you tell us, Chairman, 
about the work the FCC is doing today to close this digital 
divide? What should we look forward to going forward? And what 
do you need from us?
    Mr. Pai. Chairman Walden, I appreciate the question. We are 
doing a lot. And I don't want to use the remainder of your 
time, but what I will say is with the two critical tools in the 
toolbox that we have--that is, modernization of our regulations 
and the wiser distribution of universal service funding--we are 
making major steps towards closing the digital divide: The $2 
billion fixed broadband program that just started yesterday, 
the reverse auction for Connect America and Fund Phase II, the 
$4.5 billion Mobility Fund Phase II that will start next year, 
and some of the initiatives that may appear smaller, but I can 
tell you, when I am on the ground in places like Pendleton, 
Oregon, and Oldsmar, Florida, and McClure, Ohio, they are not 
small. Telemedicine, this is one of things that American people 
just understand, especially in rural communities where it is 
hard to attract a specialist, like my parents--who formerly 
were customers of Wave Wireless--it is very difficult in some 
cases to get specialists. The only way that some of these folks 
in rural communities will get adequate healthcare is through 
telemedicine. And you saw the response for yourself, as did I, 
at Mirasol health clinic in Oregon when the heard the news that 
we are proposing to increase by 40 percent the budget for the 
rural healthcare. If you remember, they broke out into 
applause----
    Mr. Walden. Yes.
    Mr. Pai [continuing]. Because they recognize that this is a 
lifeline, quite literally, for some of these communities. 
Pendleton and Hermiston are big cities in your district. There 
are a lot of smaller towns that will never see a specialist. I 
am really proud of the steps we have taken on the funding side 
to close the digital divide.
    In terms of modernization, too, we have done a lot to 
promote more infrastructure in rural areas, making it easier to 
build the towers, for example, in rural areas or lay fiber in 
cases where there might be not be a business case for 
deployment. And I think often about some of the visits I have 
had, including your district. I popped into Baker City, Oregon, 
where GeoNet told me that some of the steps we are taking, in 
terms of making it easier to gain access to poles or get more 
spectrum, those are the tools that are necessary for the 
smaller companies in particular, the ones that don't make the 
headlines, that nobody knows about; those are the things that 
will help them close the digital divide.
    Mr. Walden. And 5G, as it rolls out, what do we need to be 
doing there?
    Mr. Pai. I think for us that spectrum and infrastructure 
are the critical inputs. With respect to spectrum, I outlined 
some of the steps we are taking to move very quickly. And 
having just come from a couple of conferences, where I can tell 
you that my counterparts abroad are both envious and interested 
about how quickly we are moving on the 5G, the United States is 
in the lead in terms of spectrum leadership.
    As far as infrastructure goes, Commissioner Carr has done 
an able job in leading our wireless infrastructure efforts. We 
need to think nimbly and progressively about how to modernize 
our regulations. The world of a few very sparsely populated 
cell towers is fading away. The era of the small cell, hundreds 
of thousands of small cells being deployed, is almost here. And 
so our regulatory approach needs to be as nimble as the 
industry that we are seeking to regulate.
    Mr. Walden. My time has expired.
    Madam Chair, thank you for having this hearing.
    And to all the Commissioners, thank you for your 
participation and counsel.
    Mrs. Blackburn. The gentleman yields back.
    For everyone's awareness, votes have been called. Mr. 
Pallone is going to ask his questions. Then I will move to 
recess the subcommittee until we return from votes.
    Mr. Pallone, you are recognized for 5 minutes.
    Mr. Pallone. Thank you, Madam Chair.
    Chairman Pai, I was glad to see the Commission vote to send 
the Sinclair-Tribune transaction to an Administrative Law Judge 
for review, despite the wishes of the President. And I have 
long had serious concerns about this merger, including the sham 
agreements Sinclair used to try and hide the scope of this 
transaction. That is why Ranking Member Doyle and I wrote to 
the GAO 2 weeks ago, asking them to review how these sham 
agreements affect localism, diversity, and competition. 
However, last night, President Trump tweeted ``So sad and 
unfair that the FCC wouldn't approve the Sinclair Broadcast 
merger with Tribune. This would have been a great and much 
needed conservative voice for and of the People. Liberal Fake 
News NBC and Comcast gets approved, much bigger, but not 
Sinclair. Disgraceful!''
    The only thing that I find disgraceful is that the 
President is still trying to undermine the integrity of 
dedicated journalists by blatantly trying to enrich his friends 
and amplify his message at the expense of local news across the 
country.
    So let me just ask you, yes or no--we are running out of 
time--if I can ask each of the panel, do you agree with the 
President's tweet? Yes or no? We will start with the Chairman.
    Mr. Pai. Congressman, I stand by our decision.
    Mr. Pallone. OK.
    Mr. O'Rielly. Congressman, that issue has been referred. I 
have to not answer that question.
    Mr. Pallone. You don't want to answer. OK.
    Mr. Carr.
    Mr. Carr. Congressman, thank you. I think the hearing 
designation order lays out the facts and the law as applied, in 
our view.
    Mr. Pallone. All right.
    And, Commissioner Rosenworcel.
    Ms. Rosenworcel. I do not agree with that.
    Mr. Pallone. All right.
    Now, let me ask those questions of Chairman Pai. I know we 
only have 3 minutes or so.
    Given the President's politicalization of the Sinclair 
merger, will you commit to ensuring that a comprehensive and 
thorough review is conducted by the ALJ, insulated from the 
President or anyone purporting to speak on his behalf, yes or 
no?
    Mr. Pai. Congressman, we have already issued the hearing 
designation order, and my understanding is that it is now 
within the purview of the administrative law judge under our 
rules.
    Mr. Pallone. But, you are going to ensure that a 
comprehensive and thorough review is conducted by ALJ?
    Mr. Pai. Consistent with the HDO. Those are the issues that 
have been referred to the ALJ, yes.
    Mr. Pallone. OK. If the President or anyone in the White 
House discusses or has discussed the Sinclair-Tribune merger 
with you or anyone at the FCC, will you commit to disclosing 
that in the public docket, yes or no?
    Mr. Pai. Yes, except, Congressman, we have ex parte rules, 
because this is now a restricted proceeding. We are limited in 
what information we can receive and what we can put on the 
record. But consistent with our restricted ex parte rules, we 
would be happy to accommodate to the extent we can.
    Mr. Pallone. Yes, basically. All right.
    The President cites the need for a conservative voice. That 
is the thing that is most disconcerting to me, because I don't 
believe the FCC is supposed to make decisions based on what is 
conservative or liberal or Democrat or Republican or just be 
independent of the President.
    So does the FCC consider conservative or liberal viewpoints 
as part of its merger review? In other words, do you care 
whether it is a conservative voice or not?
    Mr. Pai. Congressman, I stick with the answer I gave on 
November 30, 2011, when I testified as a nominee. For every 
transaction that is before me, I will look at the facts, I will 
apply the law, and I will reach the judgment that is in the 
public interest. Nothing more, nothing less.
    Mr. Pallone. I would just hope that we are not looking at 
this from an ideological point of view, which the President is 
trying to achieve.
    The hearing designation order that the FCC unanimously 
voted to approve notes that Sinclair may have engaged in 
misrepresentations or a lack of candor in its statements to the 
Commission about the merger. Whether a licensee is lying to the 
Commission is a serious allegation and stations have had their 
license revoked for making misrepresentations to the FCC.
    So again to you, Chairman Pai, without commenting on the 
current proceeding, I am not asking you to do that, will the 
Commission conduct a factual inquiry into Sinclair's lack of 
candor regarding the licenses it currently holds either now or 
at the time of the renewal, yes or no?
    Mr. Pai. Congressman, we have referred certain issues to 
the ALJ in the HDO. I can't comment, under advice of our 
General Counsel, on anything having to do with that. And I view 
your question as being inextricably linked to some of the 
issues that we have referred to the ALJ.
    Mr. Pallone. OK. So the answer is no.
    Commissioner Rosenworcel, would you like to add anything to 
that?
    Ms. Rosenworcel. Well, I would point out that we have 
raised issues about the candor of this company before the FCC, 
the misrepresentations they made in the context of this 
transaction. And I think those are serious issues of character 
qualification under Title III of our statute. And to the extent 
that they have been identified as a problem here, we should be 
open to investigation in other contexts as well.
    Mr. Pallone. All right. Thank you.
    Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    The committee stands in recess.
    [Recess.]
    Mrs. Blackburn. The committee will come to order.
    Mr. Lance, you are recognized for 5 minutes for questions.
    Mr. Lance. Thank you, Chairman.
    Commissioner O'Rielly, in order to be the first in the 
world to deploy 5G, we need to set an aggressive schedule of 
auctions to make more low- and mid- and high-band spectrum 
commercially available. That is why Ranking Member Doyle and I 
have introduced the AIRWAVES Act, which does just that.
    However, it is my understanding that no matter how 
ambitious we are in setting a schedule, there may be certain 
technological impediments to auctioning off spectrum in a 
timely fashion.
    Is the FCC's auction IT out of date? And, if so, what 
effect does that have on the Commission's ability to keep up 
with the rest of the world in bringing more spectrum to market?
    Mr. O'Rielly. Thank you for the question.
    I don't know if I would use the word out of date or just 
not as advanced as it should be. It has limitations.
    And to the question that Congressman Doyle raised regarding 
3.5, part of the reason why I had to answer no in terms of 
census tracts is because there was not going to be an actual 
auction that we were supposedly going to conduct on the census 
tracts. It was actually going to be a sealed bid for 74,000 
licenses times 7, or half a million licenses, which we were not 
capable of running with our auction software.
    And it gets to the question, to your point, number of 
bands, people have asked for 24, 28, 37, 39, 47 all at once. We 
weren't and don't have the capability to run all of those at 
once.
    The Chairman has done a yeoman's job of scheduling spectrum 
auctions, and I appreciate the work he has done. We will 
auction two bands this fall and three next fall. That is great. 
But in terms of what we are capable of doing with auction 
software, it should be much more advanced for the money that we 
are spending on it.
    Mr. Lance. Thank you.
    Do other members of the Commission have thoughts on this?
    Commissioner Rosenworcel.
    Ms. Rosenworcel. We all know that we want to lead the world 
in the wireless economy and in 5G, and I think it is a shame if 
our bureaucratic auction software doesn't allow us to do that. 
If that is a problem, we need to commit time, energy, and 
resources to fixing it. We shouldn't allow that to be an 
impediment.
    Mr. Lance. Thank you.
    Mr. Chairman.
    Mr. Pai. I couldn't agree more with Commissioner 
Rosenworcel. That is why a few months ago I testified before 
the House and the Senate and asked for resources specifically 
devoted, in part, toward upgrading our IT infrastructure to 
allow us to do much more, much more quickly, with this 
software.
    Mr. Lance. Thank you.
    Chairman Pai, the Commission has had a petition from a New 
Jersey-based company, pdvWireless, and Enterprise Wireless 
Alliance before the Commission since the fall of 2014. The 
petition asks the Commission to update the rules around the 
lower 900-megahertz band to support broadband.
    To your credit, you put the item out as an NOI last August. 
I, of course, take no position on the merits of that, that is 
for the Commission to decide. But as we approach the 1-year 
mark since the NOI, can you, Mr. Chairman, commit to moving the 
item to notice of proposed rulemaking soon?
    Mr. Pai. Congressman, thank you for the question.
    I can say that I am working with our staff, and we are 
drafting a notice of proposed rulemaking to follow up on the 
NOI that you have inquired about.
    Mr. Lance. Thank you very much.
    Mr. Chairman, from a global competitiveness perspective, we 
need to ensure that the U.S. wins the race to 5G. We can all 
agree on that. However, at the same time, we need to ensure we 
are bringing connectivity to rural America as well. We have 
made great strides, but clearly more needs to be done.
    The AIRWAVES Act includes a rural dividend, setting aside 
10 percent of proceeds from future spectrum auctions to deploy 
wireless in unserved and underserved, often rural areas. If 
this rural dividend were in place for the last two auctions, 
over $6 billion would be used to fund rural deployment. And 
this funding would not come from taxpayers or be added to 
consumers' telephone bills.
    Do you agree that this provides a creative solution to the 
challenges of deploying rural broadband?
    Mr. Pai. Congressman, I commend you for your leadership on 
that issue. I agree with you 100 percent, so much so that in 
September of 2016, I gave a speech in which I outlined my 
agreement with the rural dividend proposal. Redirecting that 
money to rural broadband could have a major impact on closing 
that digital divide.
    Mr. Lance. Thank you. I want to continue to work with all 
members of the Commission. I commend you for your public 
service.
    I apologize for leaving. Congresswoman Brooks and I are on 
the Ethics Committee and the Ethics Committee is meeting now. 
Not about you, Congressman Shimkus, and not about me either.
    But I want you to know that I commend the work of this very 
fine Commission, one of the most important agencies of the 
Federal Government.
    Thank you, Chairman Blackburn.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Welch is not here.
    So, Mr. Loebsack, you are recognized.
    Mr. Loebsack. Thank you, Madam Chair.
    It is great to be here today with all these folks.
    It is good to see you back on the Commission, Commissioner 
Rosenworcel. I really appreciate the time when you came into 
Iowa, to Newton and Baxter, Iowa, to talk about rural 
broadband. That was really a great opportunity for me to have 
you there.
    I am happy to have the opportunity to have all of you here 
to testify, because I am always eager to discuss, of course, 
how we can build out rural broadband in Iowa and across the 
country and how we can improve mapping data--that is my big 
topic today--to ensure we are getting resources to the right 
places.
    I am sure you know my bill that I worked on with 
Representative Costello over here. The Rural Wireless Access 
Act passed into law earlier this year and it directs you folks 
to improve and standardize the way the FCC collects wireless 
coverage data so that maps will accurately reflect wireless 
coverage.
    We talked about this before when you were in northwest Iowa 
and some of the problems you had when you were losing coverage 
traveling to northwest Iowa.
    I always like to say that better data means better maps and 
better resources and policies for the areas that are truly in 
need. And this isn't only about cell phones. Mobile broadband 
is particularly important in areas that lack fixed broadband 
services. With the passage of the Rural Wireless Access Act, 
Congress is speaking, I think, and we are saying that we need 
to get better maps and better data.
    So I am sure you all know that the FCC will have 180 days 
after the conclusion of the Mobility Fund Phase II auction to 
promulgate regulations in accordance with the Rural Wireless 
Access Act. But nothing really is stopping you from doing that 
now, I would argue, or at least sooner. And that is important, 
because the Mobility II auction will send more than $4 billion, 
I think it is about $4.5 billion out the door, and primarily to 
rural areas.
    So to me, this seems like a real missed opportunity. We 
have got to act now, it seems to me. The FCC has heard from 
industry that we need better maps. They heard from Congress 
that we need better maps. But the work to create better maps 
hasn't happened yet, and I think there is some frustration out 
there about that.
    I understand that the Commission has agreed--I think this 
was back a couple months back maybe--to push back the Mobility 
Fund II auction by 90 days to allow the current data challenge 
process to continue. But I am concerned that because of the 
incredible burdens with that process, the FCC's data still may 
not be fixed.
    And I can tell you, rural America needs this broadband 
funding as quickly as possible. I think we can all agree with 
that.
    Rather, I think the Commission could take this time to make 
the important fundamental reforms called for by my Rural 
Wireless Access Act ahead of schedule.
    And, Commissioner Rosenworcel, you say in your testimony 
that, ``Too often our procedures fall short of what good 
governance requires. Our mapping practices for broadband do not 
accurately reflect the state of connectivity on the ground.'' 
And I think that is absolutely right.
    So my question is to you, really, Commissioner Rosenworcel. 
When working to advance good governance and best practices, do 
you think it makes sense for the FCC to move forward with a 
challenge process that isn't working, or should we be making 
the real overhaul necessary to fix this problem in a more 
expedited way?
    Ms. Rosenworcel. We have a problem with wireless service in 
rural America, and you cannot manage problems that you do not 
measure.
    Right now, the FCC's mapping process for wireless service 
is basically asking the largest carriers whether or not they 
provide service in an area. And then we have invited local 
officials and small wireless carriers to contest that data.
    But the process of contesting that data is cumbersome, it 
is difficult, it is long. It entails setting up an account, 
downloading 50 pages of information, getting multiple handsets, 
walking around in cornfields and elsewhere every half a 
kilometer and taking down information about signal strength and 
latency, then uploading that with the certification of an 
engineer and returning it to the FCC for our assessment.
    I am going to argue that that process is too burdensome for 
most wireless communities to undertake. And as a result, I am 
worried about our Mobility Fund mapping as it stands today.
    Mr. Loebsack. And, Chairman Pai, I would like you to 
respond as well, give you that opportunity, if you would like 
to respond to that.
    Mr. Pai. Thank you, Congressman.
    The system we inherited when I came into office in January 
2017 was a free-for-all, frankly. Any carrier could use 
whatever technical standards it wanted to supply whatever 
information it wanted.
    That wasn't good enough for me. If we were going to 
distribute $4.5 billion of funding, I wanted to close the 
digital divide to serve unserved areas.
    That is why, under my leadership, we started, on a 
unanimous basis, a bespoke one-time data collection for 
mobility to see exactly where coverage was and where it wasn't, 
with a standardized set of rules. And that is why I appreciate 
the concept behind your legislation.
    We have extended the deadline, as you pointed out, for the 
challenge process, to give all types of entities the ability to 
challenge. We have broadened the categories that can challenge. 
It is not just rural carriers, but State and local governments.
    We have also extended waivers to everyone from Senator Joe 
Manchin of West Virginia to the Kansas Farm Bureau to be able 
to participate. Our own staff has done a lot of road shows, and 
I believe it is nine States currently and a number of webinars.
    We have also created a map with just one unsubsidized 
competitor to allow companies, anybody, an easier way to 
pinpoint those areas that are ripe for challenge.
    All of these steps, I agree, are complex. Nonetheless, 
something is better than nothing, and nothing is what we 
started with.
    We are making progress slowly but surely, and I am 
confident when we hold that Mobility Fund auction, folks in 
Woden, folks in my home State, everyone will be able to get 
coverage ultimately because we did the very hard and dirty work 
collecting this data as best we could.
    Mr. Loebsack. Well, thanks to all of you. And we will be 
staying in touch, I can promise. Thanks very much. Thank you.
    Thank you, Madam Chair.
    Mrs. Blackburn. And Broadband Loebsack, as we have come to 
know him at this committee, does yield back his time.
    Mr. Shimkus, you are recognized.
    Mr. Shimkus. Thank you, Madam Chairman.
    Welcome, everybody. It is great to have you back.
    I want to start with Commissioner O'Rielly. I want to just 
thank you for raising and addressing the 9-1-1 fee diversion 
issue. It is hard to talk about that when your State--my State 
was good. Then it was bad. Now I think it is good again.
    But as Congresswoman Eshoo and I have worked on 9-1-1, as 
many of you know, for a long time, States diverting that money 
is, in essence, stealing from the fund in which they were 
paying into. So I just want to publicly thank you for that.
    But sticking with you, I have been named to the farm bill 
as a conferee.
    Mr. O'Rielly. Congratulations.
    Mr. Shimkus. Yes. Get my pitchforks out.
    But one of the things that we want to--one of the reasons 
why we are on there is the broadband deployment, and there are 
U.S. issues.
    So how can we get the FCC, the RUS, and NTIA to work 
together so we are not duplicating functions or are actually 
working together to address--everyone is talking about, right, 
rural broadband, connectivity. And so every member has 
mentioned that as part of their discussion. So I am looking for 
some advice and some consultation so that when I go in I can be 
an impact.
    Mr. O'Rielly. I would be more than pleased to provide more 
technical advice to you. There are extensive provisions in both 
the House and Senate farm bill. There is also the pilot program 
that was created as part of last year's budget bill. And they 
all have the potential, as I read them now, to provide 
duplication with existing programs we have at the FCC.
    The chairman has done a wonderful job in working with 
different agencies. I was looking at language in terms of 
consultation. It requires consultation. So basically they will 
talk to us before the--RUS, for instance, would talk to the FCC 
before a decision is made. But that doesn't get you a 
prohibition on duplication. It just requires a consultation.
    Mr. Shimkus. So we then know about the duplication instead 
of being surprised about it.
    Mr. O'Rielly. Yes, we know where the limitations are.
    And if you look at the House bill, for instance, it has 
different speed thresholds. It wants 25/3 compared to where we 
are trying to fund. And I recognize our speeds in the funding 
that we do are less than what people would like, but we are 
trying to stretch our dollars as far as we possibly can with 14 
million people--or 24 million, depending if you count satellite 
or not--unserved households today. That has been my primary 
concern.
    So I would be more than pleased to work with you to try and 
figure out how to tighten the language to make sure we have 
duplication, that we do not have coordination throughout, 
rather than consultation.
    Mr. Shimkus. I appreciate that.
    And let me go to Commissioner Carr. And then if I have time 
I can open it up for other folks.
    You have done some work already doing what we are trying to 
do in the SPEED Act, which is address on the deployment 
rightsizing historic and environmental rules, not reinventing 
the wheel if the siting tower is the same siting tower, but 
then you are going to put a 5G system on there.
    Can you talk about what you have done in the Commission so 
far on that aspect?
    Mr. Carr. Sure. Thank you, Congressman, for your leadership 
on these issues.
    Some of the legislation that you have mentioned contains a 
lot of really great ideas. There is this global race that is 
ongoing to 5G. And winning that race isn't just about getting 
next-gen connectivity in New York or San Francisco. There are 
thousands of other communities that need their fair shot at 5G.
    A big portion of 5G is going to be small cells. One of the 
challenges there is how do we make the economic case to get 
small cells everywhere? So by removing regulations that were 
really designed for 200-foot macro towers, having them continue 
to apply to those towers, but putting an updated approach for 
these small cells can make a big difference in extending 5G 
everywhere.
    Mr. Shimkus. So then let's just finish with this part of 
the debate. In our language, we are directed to Federal 
property, parklands and issues, because there is a perceived 
concern by smaller municipalities and stuff that you are going 
to--we could, in the guise of rolling out 5G, that we are going 
to take away their rights to help in the local decisions.
    Have you had any of those debates and discussions? And what 
are your thoughts about that?
    Mr. Carr. We have had a lot of really good, really 
productive meetings with local elected officials, whether it is 
county commissioners. As I have been on the road, I was in 
Boston at the U.S. Conference of Mayors conference.
    These local officials deal with issues that we at the FCC 
will never deal with. If there is an ugly small cell that goes 
up somewhere, those local officials are the ones that are going 
to get the call about it, not us.
    So I think at the end of the day, we can look to try to 
find some common ground because we share the same goal of 
getting more broadband deployed.
    Mr. Shimkus. Again, my time has expired. I wish I would 
have had more time to talk to everybody.
    And I yield back. Thanks.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Welch, you are recognized.
    Mr. Welch. Thank you very much.
    I want to make three comments and then discuss two topics, 
rural broadband and the homework gap.
    The comments are, number one, thank you for your help on 
the passage of the RAY BAUM'S Act.
    Number two, I do commend you for your decision on Sinclair. 
Number one, you did it together. It is so, so important for us 
to find ways we can do things together. Number two, if we are 
going to have strong rural communities, we have to have local 
institutions, and there is no institution more important 
locally than local news.
    And then three, Commissioner Carr, telehealth, that is a 
big opportunity for us and really, really essential.
    The two topics I want to speak about are the rural 
buildout, and I am going to talk to you, Chairman Pai, a little 
bit about this. Commissioner Rosenworcel said you can't assess 
something if you can't measure it. You can't challenge rural 
broadband or make it universal unless we acknowledge that there 
is a real problem.
    And what Congress said in 1996, it required the FCC to 
report annually on whether advanced telecommunication 
capability is being deployed to all Americans in a reasonable 
and timely fashion. In 2016, the Broadband Deployment Report, 
and you were serving on the Commission then, said, and you 
concurred with it, where it was critical of the buildout.
    You said: I agree, ``This administration's policies have 
failed to deliver 'advanced telecommunications capability'--
broadband--to the American people in a reasonable and timely 
fashion.'' And you were explicit: ``The standard set forth by 
Congress is not being met. Rural America is being left 
behind.''
    Fast forward to 2018. In the Broadband Deployment Report, 
this is under your leadership, there was a determination that 
``broadband services are now being deployed to all Americans on 
a reasonable and timely basis.'' And what you said in your 
statement is the current FCC is now meeting its statutory 
mandate to encourage the deployment of broadband on a 
reasonable and timely basis.
    That is not what Congress is requiring. It is not to 
encourage; it is to get the job done.
    I want to spell out some of the facts that I understand to 
be the case, and you can tell me whether you agree or disagree.
    Twenty-four million Americans lack access to fixed 
broadband at speeds of 25/3, the FCC standard. Do you agree 
with that or not?
    Mr. Pai. I do.
    Mr. Welch. Great.
    Thirty-one percent of Americans in rural areas lack access 
to the broadband service. Do you agree with that?
    Mr. Pai. I do.
    Mr. Welch. All right.
    Forty-four million Americans lack access to both fixed 
broadband at 25/3 speeds and mobile LTE broadband at 10/3 
speeds.
    Mr. Pai. I would have to double-check that number, but I 
don't have any reason to suspect it is incorrect.
    Mr. Welch. OK. So we are in agreement that there is a 
problem.
    Mr. Pai. Correct.
    Mr. Welch. And I hope we are in agreement that your job, 
FCC, all of you, is not to encourage, it is to get it done.
    Mr. Pai. Absolutely.
    Mr. Welch. Great. That is good.
    Now, in listening to you--not just today, but other times--
I have heard you talk about what you see as the benefits of 
deregulation, including the elimination of net neutrality, 
correct?
    Mr. Pai. Correct.
    Mr. Welch. Let me be explicit. We could give you a pen and 
you could write a revocation of every single regulation that 
exists. Will that provide the financial incentive for broadband 
carriers to build out on dirt roads in Vermont and Iowa and 
Kansas where there is one house every half mile?
    Mr. Pai. Congressman, this is the central problem. In too 
many parts of this country there is no private business case 
for deployment. That is why our job----
    Mr. Welch. That is my point. Deregulation won't get it done 
where there is no market opportunity.
    Mr. Pai. That is not correct, Congressman. Look at the 
letter from VTel, which I appended to my testimony. VTel stated 
specifically that they are spending millions of dollars more 
because of these regulatory modifications.
    Mr. Welch. Thank you. And thank you for bringing up VTel. 
And, in fact, I happen to be a VTel customer. And what they 
said in that letter is they are going to invest $4 million 
more. We have got 100,000 people underserved in Vermont.
    What you didn't indicate was that VTel was the recipient of 
a $130 million ARRA grant. So that is kind of relevant. There 
was actual public money that went into helping the broadband 
buildout.
    So the fundamental question here, OK, because we have got 
agreement that we have got to get rural America wired, and 
every single day it is more important that we do that, but it 
is not going to happen just with deregulation. There has got to 
be some mapping. There has got to be a bolstered Universal 
Fund. There has got to be promotion of local competition. We 
had some people in here from rural communities that were having 
local companies that were doing really hard things and getting 
it done, because their investment was in the community.
    So I see my time is up and I didn't even get to the 
homework gap, Commissioner, which I applaud you for your work 
on. But this is a real ongoing problem.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Latta, you are recognized.
    Mr. Latta. Thank you, Madam Chair.
    And thank you very much, FCC Commissioners, for being with 
us today.
    Chairman Pai, technology such as the Internet of Things, 
artificial intelligence, blockchain are disrupting the markets 
and even changing our everyday lives. We need widespread 
broadband connectivity to drive these technologies to their 
potential.
    Is the Commission focusing resources on learning more about 
these emerging technologies and how critical broadband access 
is to this discussion?
    Mr. Pai. We are, Congressman. And thank you for that 
thoughtful question. I have personally spent, both because of 
professional obligations and personal interest, a lot of time 
thinking about these issues starting in the fall of 2017.
    And that is part of the reason why recently I announced 
that the FCC would be hosting a forum later this year on the 
impact of artificial intelligence and machine learning, in 
particular on the communications sector, because I think we are 
simply scratching the surface in terms of the potential of some 
of these technologies. They have obviously disrupted a number 
of industries, and I think there is a useful focus for the FCC 
in thinking about how it could disrupt communications.
    Similarly, I have been looking at a number of other 
technologies, virtual reality and augmented reality, 
blockchain, connected vehicles, and the like. I think we need 
to make sure that we are always keeping track of some of these 
technologies. It is hard, because of both the depth and the 
breadth of some of these innovations.
    But nonetheless, I have been talking to a number of 
experts, including our own chief technology officer, companies 
in Silicon Valley, and the like, about how to make sure that we 
are aware of some of these changes. And the transformation thus 
far has been tremendous, but I think over the next 5 to 10 
years, it is going to be even more mind-blowing.
    Mr. Latta. Thank you.
    Commissioner O'Rielly, the RAY BAUM'S Act calls for the FCC 
and the NTIA to identify 100 megahertz of new unlicensed 
spectrum under 8 gigahertz by the end of 2022. What steps will 
the Commission take to free up much-needed unlicensed spectrum 
to support growing consumer demand for existing technologies 
and to provide innovation space for the technologies of the 
future?
    Mr. O'Rielly. Absolutely. Thank you, Congressman.
    I would only answer your previous question to Chairman Pai, 
I would say also don't forget about narrow band. Narrow Band-
IoT, very important. But I don't want to get sidetracked.
    To your point on unlicensed, the Commission, and with the 
Chairman's great leadership, is going to move forward on a 
number of things, including in 6 gigahertz, where we are going 
to hopefully, assuming that an NPRM is adopted later this fall 
and moved to order sometime next year, provide additional 
spectrum for unlicensed purposes.
    We have also been working, Commissioner Rosenworcel and I 
have been working extensively on 5.9. And I have also raised 
the question of whether 4.9 may be a place that we can work 
with to have unlicensed bands and services, because we have 
reached a maximum capacity. Five gigahertz is getting rather 
full in terms of services; 2.4 is already full.
    So unlicensed is going to have to be a very big portion of 
our consideration going forward.
    Mr. Latta. Thank you.
    Commissioner Carr, earlier this week the House passed the 
Precision Connectivity Act, and you have all been hearing a lot 
of questions coming from us, and especially when we are talking 
about rural broadband and getting that access out there.
    This is a bipartisan bill that I authored with my friend, 
the gentleman from Iowa, Mr. Loebsack, which directs the 
Commission to set up a task force in collaboration with the 
Secretary of Agriculture, identify and measure gaps in 
broadband availability, and develop policy recommendations to 
promote rapid broadband expansion on agricultural land.
    Do you believe the Commission can execute the requirements 
of the Precision Agriculture Connectivity Act?
    Mr. Carr. Thank you, Congressman.
    Yes, I do. I think it is an important issue, as you point 
out. The intensive amount of data and broadband that is used in 
agriculture today is quite mind-blowing. When you get outside 
of D.C.--I was in Moline, Michigan--you see the high bandwidth 
uses, from connected combines to drones that are taking 
detailed images down to the tiny dots of a leaf on a crop.
    We need to find ways to get high-speed broadband for 
farmers and ranchers. I think this bill is one way that is 
going to do it.
    Mr. Latta. Let me follow up with that. To what degree will 
it require a combination of the technologies in the wireline 
and wireless to meet that broadband challenge for the precision 
agriculture?
    Mr. Carr. Ultimately, it is going to require a mix of 
technologies. Fiber is going to work in some places, fixed 
wireless in other places. We are seeing a new generation of 
satellite technologies that can also help. So we are going to 
have a lot of different technologies that are making that last 
mile work.
    Mr. Latta. Thank you very much.
    And, Madam Chair, I yield back the balance of my time.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Dingell, you are recognized.
    Mrs. Dingell. Thank you, Madam Chair.
    Thank you, all of you, for being here this afternoon.
    Chairman Pai, I want to begin with you and ask about your 
response--or lack thereof--to a letter that Mr. McNerney and 
myself sent regarding the DDoS attack that crashed the FCC's 
website during the net neutrality comment period, or what you 
told us had crashed it.
    Last year, during a hearing that we were having, you 
indicated that you would follow up with the committee to 
provide information on what had actually happened. Then, in 
another hearing in October, you said--and this is directly from 
the transcript--you had provided a detailed response to the 
committee and, ``I would be happy to provide that to you with 
some of the particulars in that regard.''
    The committee has never received it. We have not received 
it. And then you responded to a question for the record by 
saying you couldn't release the information to the committee. 
Now, since then, we have learned some information from the 
press about this, but we still have a lot more questions than 
answers and are still waiting for a response.
    Would you agree, Chairman Pai, that there is something 
wrong when members of the committee tasked with oversight of 
the FCC learn about issues from the press when we have been 
asking about them for more than a year?
    Mr. Pai. Thank you for the question, Congresswoman.
    In consultation with the Office of General Counsel 
following that particular hearing that you referenced, the 
General Counsel opined that we require a letter from the 
Committee in order to share certain information because of some 
of the sensitivity of that information. Should the Committee 
issue such a letter, again, we would be happy to accommodate.
    Additionally, I want you to know that we have been working 
with both the General Accountability Office--of course, 
Congress' investigative arm--as well as the Office of Inspector 
General at the FCC on these issues. And that has been ongoing 
for a number of different months. And so the fact that you 
might not have heard a lot of news from the FCC does not mean 
we haven't been working with these independent bodies to 
investigate these particular issues.
    Mrs. Dingell. Well, I think this committee would think that 
we should have some information on this. And so you are saying 
from the subcommittee chair, the full committee? Who do you 
need to receive that letter from, since you haven't been asked 
enough by enough of us?
    Mr. Pai. My understanding from the General Counsel is that 
the Committee----
    Mrs. Dingell. What is your definition of committee? Does 
that mean Mr. Walden and Mr. Pallone need to send you a letter?
    Mr. Pai. I believe that is correct.
    Mrs. Dingell. OK.
    Madam Chair, can we talk to the full chair about this? 
Thank you.
    All right. So then I would like to continue. Since there is 
already some public information about the attack, will you 
commit to finally following up with the committee if we get 
this letter, to provide us with reports, requests, memoranda, 
service logs related to the DDoS attack, the FCC's protocol for 
documenting it, and what steps you are taking to mitigate 
events like this going forward?
    Mr. Pai. Congresswoman, what I can tell you is that, again, 
we have been working cooperatively with the Office of Inspector 
General. The Inspector General has done a fantastic job 
investigating this issue. And I don't want to speak for him, 
but what I can say is that I would expect him to issue more 
information on this in the very near future.
    Mrs. Dingell. Hopefully, to the committee that has 
jurisdiction.
    Chairman Pai, let me also ask you about a letter that you 
were sent asking for an investigation into whether companies 
improperly sold TV viewer data to Cambridge Analytica. You 
punted this matter to the FTC, which I disagree with. But we 
did a followup letter asking further questions about this 
decision. It is critical that the FCC enforce privacy 
protections of the communications sector to the fullest extent.
    When can we expect a response to this letter? And why did 
the FCC decline to conduct an investigation into this?
    Mr. Pai. I appreciate the question, Congresswoman.
    The agency is a creature of Congress. We can only exercise 
authority that Congress has delegated to the agency.
    In this particular case, there are two specific 
authorities: Section 338 and Section 631. Those authorities 
extend to cable operators and satellite systems. Neither TiVo 
nor comScore is a satellite operator or a cable system. So we 
cannot exercise jurisdiction under them in the manner in which 
you requested.
    Additionally, to the extent that you were asking about the 
company DISH and its provision of aggregate data, that is a 
specific exception from the statutory authority that does not 
allow us to exercise jurisdiction.
    And so it wasn't simply a punt, but a recognition of 
reality under the current law that the Federal Trade Commission 
can be and is expressly authorized under Section 5 of the FTC 
Act and other authorities to investigate this particular 
matter, and that is why we referred it to them. They are the 
primary privacy cop on the beat, and we want them to be able to 
look at this issue, consistent with your request.
    Mrs. Dingell. I am out of time, so I can't keep asking. I 
had more.
    Thank you. I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Guthrie, you are recognized.
    Mr. Guthrie. Thank you.
    Commissioner Carr, first, I want to talk to--this isn't 
necessarily directly FCC, but it is something you have been 
working on I am very interested in here, and it is the skills 
gap and apprenticeships. I work with Susan Davis from 
California on another committee.
    And I had the Wireless Infrastructure Association come to 
see me. And I don't know if you were with them or somebody 
else--that you actually climbed a tower recently. And they were 
trying to figure out how 5G deployment could be held up just by 
not having the skills of people able, men and women, to be able 
to go out and deploy 5G.
    And I know I have like 6,500 open jobs in my community. If 
you show up with some skill it is easy to do a living wage. If 
you show up with skills, you have a career.
    And so I know that is an interest of you, in terms of this 
area. Could you talk about things that you have worked in, in 
this area, what the skills gap is, and some things you think we 
should be able to do to help close that?
    Mr. Carr. Yes. Thank you, Congressman, and thank you for 
your leadership on this issue. You mentioned I climbed a cell 
tower in Sioux Falls, California, and I demonstrated my own 
skills gap attempting to keep up with the people doing that.
    But to your point, the skills gap, in my view, comes in two 
places. One, when you look at the deployment of next-generation 
network, 5G, these thousands of small cells, right now we 
potentially don't have the workforce in place that can do that 
work, the deployment of it, the consideration of the RF 
implications, in terms of where you set an antenna up to get 
coverage.
    And then we also see it in communities being able to have 
the skills, take advantage once those connections are in place. 
I was in Detroit at a school that is trying to give either low-
income people, people recently released from prison, the 
training and the job skills they need to take advantage of the 
digital economy.
    To your point, I think there is more we can do on the 
apprenticeship side with streamlining those efforts to make it 
easier for people to move into this space. I have done some 
events with the Department of Labor geared towards that.
    Mr. Guthrie. Thank you very much. And as I said, that moves 
toward careers instead of just jobs, and that is what we really 
want to reach out to help people with.
    Also, Chairman Pai, in the RAY BAUM'S Act, Congresswoman 
Matsui and myself had the auction deposits bill that was 
included into that area.
    My question is for you and Commissioner O'Rielly, I think 
Commissioner O'Rielly, you both brought that to our attention. 
Are you seeing any other barriers in the auction mechanics that 
may need statutory fix to streamline to make the auctions go 
smoother or better, both of you or either of you?
    Mr. Pai. Thank you for the question, Congressman. Before I 
do that, I want to assure the subcommittee that we consulted 
with the General Counsel, and had something happened to 
Commissioner Carr on that tower climb, the FCC still would have 
had a quorum sufficient to discharge its duties as prescribed 
by Congress.
    But more seriously, we are so grateful to you, to 
Congresswoman Matsui, and to the entire subcommittee for your 
leadership in fixing that problem.
    As I look at the lay of the land in terms of our legal 
authority, we have sufficient authority at this point, with the 
exception of the budgeting, the issues that I talked about 
earlier, to make sure that we can conduct auctions in an 
expeditious and productive way.
    Mr. Guthrie. Thank you.
    Mr. O'Rielly, I have another question for you if you want 
to answer that.
    Mr. O'Rielly. I was going to answer to the point. I don't 
think it is a question of authority. I think it is a question 
of what this committee does very well, which is oversight and 
following up to make sure that the auction software is advanced 
to meet the goals for the future.
    Mr. Guthrie. OK, thank you.
    And also for you, Commissioner O'Rielly.
    Thank you for your support on the 6 gigahertz proceeding 
and your testimony. As you know, this is an important issue for 
the Spectrum Caucus.
    Would you like to elaborate on the need for this spectrum 
and what timeframe you expect to see for the expected NPRM? If 
you could be more specific than maybe the fall or something 
like that.
    Mr. O'Rielly. Absolutely.
    So the predominant bands that I mentioned before, 2.4 and 5 
gigahertz, are congested. And so we need to add more unlicensed 
spectrum to the portfolio, for all the benefits that they bring 
that I have talked about in the past. Commissioner Rosenworcel 
and I have worked together on this issue.
    Six gigahertz is what I consider the second best option for 
additional unlicensed spectrum next to 5.9. We are working hard 
on that. It has been a very difficult slog to try and come to 
resolution.
    But 6 gigahertz may be something we can move forward 
quicker. It is the uplink to C-band. C-band has the other 
component that the subcommittee has talked about a little bit 
earlier.
    In terms of the point on the timing, that is something that 
the Chairman--I don't want to get ahead of him, but I think 
that the goal is to have an NPRM this fall timeframe.
    Mr. Guthrie. Commissioner Rosenworcel, do you have any 
comments on that?
    Ms. Rosenworcel. No. I agree with much of what my colleague 
Commissioner O'Rielly said.
    Unlicensed spectrum has historically been scraps in our 
airwaves. We have got to be intentional about it. We need more 
Wi-Fi in our skies, and we have got opportunities in the 5.9 
gigahertz span and 6 gigahertz span, and it is time to pursue 
them.
    Mr. Guthrie. Well, thank you very much.
    And my time is almost expired, so I will stop there. I 
yield back 15 seconds.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized.
    Mr. McNerney. I thank the chair.
    And I thank the Commissioners for your work. It can't be 
that easy, but hopefully rewarding.
    Chairman Pai, it has been 2 months since we learned about 
the VPNFilter, the Russian-linked malware that can be used to 
steal users' information, exploit devices, and block network 
traffic. Hundreds of thousands or more routers have been 
compromised. Yet consumers either know nothing about it or they 
have been left wondering if their router is affected and how to 
take action. And these are routers that are being rented from 
their ISPs.
    Do you agree that the ISPs have a responsibility to inform 
consumers they lease routers to about known vulnerabilities? 
Can you answer yes or no?
    Mr. Pai. Congressman, we do want to ensure that consumers 
get the information they need about the security of their 
equipment.
    Mr. McNerney. Do the ISPs have a responsibility here?
    Mr. Pai. Legally, I would have to look into it. But 
certainly, as a general business matter, I would hope that they 
would inform consumers about any risks to that equipment.
    Mr. McNerney. Is the FCC doing anything to encourage ISPs 
to inform customers about this malware and how to update their 
routers or if their routers have been compromised?
    Mr. Pai. Congressman, I have to be a little bit circumspect 
on this issue. I can't comment on things that might have some 
classification to them. But we would be happy to work with you 
to provide what information we can on the subject.
    Mr. McNerney. Well, is the FCC doing anything at all to 
help protect customers against malware from their routers?
    Mr. Pai. Again, there are certain issues I can't discuss. 
But generally speaking, yes, we do monitor any potential 
threats to equipment, and we work with the industry to make 
sure that they apprise customers about it.
    Mr. McNerney. Commissioner Rosenworcel, do you think the 
FCC has a role in protecting consumers from cybersecurity 
threats?
    Ms. Rosenworcel. Yes, I think the FCC has a role in 
protecting consumers from cybersecurity threats.
    I also think our equipment authorization process is of note 
here. Those routers have to be authorized by the agency, 
because they use radio frequency. We could certainly look into 
using our Part 15 process to certify that they will notify 
consumers of any malware or cyber risks associated with their 
use.
    Mr. McNerney. Thank you for that answer.
    The GAO has committed to investigating fake comments 
submitted to the FCC in the net neutrality repeal proceeding, 
and I understand that the New York attorney general is 
investigating as well. As it stands, we know that at least 2 
million of these comments are fake, some even coming from 
Russian email addresses.
    Commissioner Rosenworcel, is it your view that the FCC has 
been cooperating with law enforcement agencies?
    Ms. Rosenworcel. I do not believe we have been cooperating 
with law enforcement agencies. I think that is a problem. Two 
million peoples' identities were stolen in our record. That is 
a Federal crime under Title 18. It is also a crime in many 
States. We should be referring these matters to State attorneys 
general and the Department of Justice.
    Mr. McNerney. Thank you.
    Chairman Pai, can you commit to ensuring that your office 
and the FCC as a whole will cooperate with these 
investigations?
    Mr. Pai. Congressman, we have been cooperating with the 
General Accountability Office. As I said, the Office of 
Inspector General is looking into this issue.
    In addition, I proactively have announced recently in a 
letter in response to Senators Merkley and Toomey that we would 
be changing our process to ensure that some of the issues that 
arose last time, for example, 7.5 million comments in support 
of Title II using fakemailgenerator.com, 400,000 pro-Title II 
comments from a single address in Chelyabinsk, Russia, that 
those things don't happen.
    As we are exploring the use of CAPTCHA and other potential 
solutions, assuming we get authorization from our 
appropriations committees, we are reprogramming of certain 
funds.
    Mr. McNerney. Well, I am still waiting for a response for 
the report's--and this is following up on Mrs. Dingell's 
comments--request memoranda related to the alleged DDoS attack 
on the comment system, requesting these documents multiple 
times now, and hope that you will provide them sometime soon.
    Mr. Pai. Congressman, again, to follow up on my response to 
Congresswoman Dingell, we have been working with the Inspector 
General. He has done a fantastic job on this. And stay tuned, 
they will be issuing information.
    In the meantime, additionally, as I said, in consultation 
with the General Counsel, we require a letter from the 
Committee in order to supply certain types of information that 
you are seeking.
    Mr. McNerney. Are there any steps you are taking now to 
prevent comments from being filed in a manner that would impact 
your proceedings?
    Mr. Pai. Yes, sir. So we are, as I said, exploring, in 
consultation with our career staff and the Office of Managing 
Director and others, solutions like CAPTCHA or other similar 
mechanisms to ensure the integrity of our proceedings.
    The system we inherited in January 2017 was designed to be 
a fully open process that anyone can participate in, but we 
want to make sure that it is one that, again, respects the 
integrity of the FCC's processes and confirms the seriousness 
of our work.
    Mr. McNerney. Thank you.
    Commissioner Rosenworcel, last question. I am concerned 
about the proposed changes to the Lifeline Program. I am 
worried that, if adopted, it will only further widen the 
digital divide and be a major setback for vulnerable 
populations like veterans.
    The proposed changes, could you give me an idea how that 
might affect veterans?
    Ms. Rosenworcel. I appreciate the question. I am, in fact, 
the daughter of an Air Force veteran.
    There are 1.3 million veterans in this country that rely on 
the Lifeline Program today. And, in fact, at the behest of 
Senator McCain and Senator Blumenthal, we expanded the program 
to include the Veterans Pension program so that more veterans 
could apply and participate, so that when they finish their 
service they can reacclimate to civilian life and have 
communications necessary to do so. I think it would be 
offensive if this agency decided to cut them off from 
communication service.
    Mr. McNerney. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Olson, you are recognized.
    Mr. Olson. I thank the chair.
    And welcome to our four leaders of the FCC.
    Chairman Pai, Texans back home in Texas 22 want me to thank 
you for standing up for a thriving internet. They are grateful 
for your actions to stop the false net neutrality rules of the 
previous administration.
    You found out firsthand what my former boss, Texas Senator 
Phil Gramm, found out about killing a bad government program or 
rule: It is easier to kill a vampire than a bad government 
program. Yet you persevered. And now again to channel Phil 
Gramm: The previous rule is deader than Elvis.
    It is again hurricane season. I would like to also thank 
you for coming down within days after Harvey hit Houston to 
help us on the ground recover with our telecommunication 
systems. I am hopeful this year is not like last year: Harvey, 
Irma, Maria, fires. We have to make sure we are prepared.
    Can you update us on what the FCC has done to prepare for 
hurricanes and other disasters this year?
    Mr. Pai. Thanks so much for the question, Congressman, and 
thank you and the folks in your district for hosting me when I 
was in Houston after Hurricane Harvey.
    We are doing a number of things to make sure that our 
networks are as resilient as possible and that restoration is 
as quick as possible.
    In terms of funding, we have extended funding to make sure 
in Puerto Rico and the Virgin Islands, for instance, that we 
can restore those networks as quickly as possible. And we have 
also extended a number of different waivers and streamlining 
orders to make sure that carriers can focus on rebuilding 
networks instead of paperwork to the FCC.
    Additionally, we have engaged in a number of different 
experiments, for example, granting an experimental license to 
Google to use Project Loon to beam internet access from 
balloons. In a situation like that, we don't care what 
technology is used to get people back on the grid, we want them 
to get back on.
    Additionally, we have been working to make sure that our 
wireless emergency system is much more resilient. I would be 
happy to talk about some of the different steps there, but the 
bottom line is we are making sure that these alerts are more 
targeted, are more informational, and the consumers don't tune 
them out.
    An additional one that is specific to you that I thought I 
would mention, because a lot of people don't think about this, 
some 33 trillion gallons of water were dumped on your part of 
Texas in the wake of Hurricane Harvey. That had a huge impact 
on those parts of the area that only had copper lines in the 
ground.
    Copper degrades when it is under severe water pressure, and 
if it is exposed to water it is utterly useless. And those 
areas of Houston that had fiber were much more resilient. 
Either the cell towers didn't go down or the networks stayed up 
altogether.
    And so I think that it is important when we talk about some 
of our copper retirement rules and other nitty-gritty wireline 
reforms that we have got is that there is a huge public safety 
benefit to doing this, NG9-1-1 and the rest. I think it is very 
important to keep that in mind.
    All of these issues that we have been talking about 
previously have a public safety dimension that I think we 
should all recognize.
    Mr. Olson. By the way, thank you for all those emergency 
messages that came over, warning tornado, warning floods, 
warnings swamped the whole system. With your work, it is 
targeted now to where it actually is. As opposed to hitting a 
whole county, it is hitting a city. And that is a big deal, 
because we were bombed. We got spammed by all these. It just 
became nothing after days of these buzzers going off. So thank 
you for acting quickly to make that happen.
    Commissioner Carr, you have been leading the FCC in finding 
new ways to reduce government red tape that slows 5G 
deployment. Verizon has just announced it plans to launch 5G in 
Houston, Texas, later this year.
    Can you tell me how your work will help expedite this 
rollout quickly in Houston?
    Mr. Carr. Thanks very much, Congressman, for the question. 
I am glad to see that Houston is going to be on the leading 
edge of getting 5G.
    That is something that we want to replicate across the 
country. So we have a number of reforms that we have already 
taken. That is going to reduce the cost of deployment. That is 
going to make a big difference, particularly in costly, 
difficult-to-serve areas. We have a number of ideas that we are 
continuing to look at, at the Commission.
    I also wanted to follow up on your earlier question. I was 
also in Houston at the Harris County 9-1-1 Center and saw the 
great work that they were able to do there in response to 
Hurricane Harvey.
    Mr. Olson. And one last question. I am running out of time 
here, but this is for you, Chairman Pai.
    As you probably know from my biography, I spent 9 years in 
the Navy, lieutenant commander, a leader in the Navy. You are 
the leader of this FCC, this Commission. You have a member who 
has climbed up a cell tower. As leader, don't you think you 
should follow his lead and climb up a cell tower as well, 
somewhere in South Dakota maybe?
    Mr. Pai. That was a curve ball I had not prepared for, 
Congressman. Although Commissioner Carr is far younger and more 
nimble than I am, nonetheless, I will put my own life at risk 
to ascend perhaps a 10-foot tower to inspect a small cell 
somewhere in Houston once the deployment is ready.
    Mr. Olson. I will go with you.
    I yield back.
    Mrs. Blackburn. And the gentleman will not only go with 
you, he will climb the tower.
    Ms. Matsui, you are recognized.
    Ms. Matsui. Thank you very much, Madam Chair.
    And welcome to all the panelists. I don't have a climb-the-
tower question here.
    So but anyway, I want to follow up on my Spectrum Caucus 
co-chair, who is Brett Guthrie, talking about 6 gigahertz. I 
understand the Commission is planning to move forward with NPRM 
to explore the possibility of opening the bands known as 
collectively 6-gigahertz band for unlicensed use in the fall.
    Commissioner O'Rielly and Commissioner Rosenworcel, what 
interference protection to mitigation techniques, such as 
frequency coordination, could protect incumbents and allow 
unlicensed operations in this band?
    Mr. O'Rielly. Well, thank you.
    So those that have been interested in making 6 gigahertz 
available for unlicensed use have put forward engineering 
studies to show that the interference, harmful interference, 
would be minimal, and they have recommended a number of 
mitigation efforts. They will all have to be explored as part 
of the NPRM this fall.
    Ms. Matsui. OK.
    Ms. Rosenworcel. We do have before us some engineering 
studies like my colleague referenced. The most important thing 
we can do is put this out for a rulemaking so that we make it 
possible for the 6-gigahertz band to be used for unlicensed 
service in the near future.
    Ms. Matsui. Right. Great. Thank you.
    Last week, I announced that I am working on legislation to 
direct the Department of Commerce to convene a working group of 
Federal and industry stakeholders to develop a consensus-based 
definition of blockchain.
    Distributed ledger systems such as blockchain have 
particularly interesting potential applications in 
communication networks, including in IoT deployments and 
spectrum sharing. Next-generation networks, including 5G-
capable radios, have the opportunity to ensure spectrum is 
being used as efficiently as possible.
    But there currently is no common definition of blockchain, 
which could potentially hinder it in its deployment, especially 
in those cases where sharing may be the only viable option.
    Commissioner Rosenworcel, so what potential could 
blockchain have in increasing spectrum efficiency?
    Ms. Rosenworcel. Thank you for the question and being so 
forward-thinking about this.
    I have written some pieces for Wired and elsewhere where I 
have pointed out that spectrum is a scarce resource. We need to 
come up with more efficient ways to distribute it other than 
just traditional licensed and unlicensed regimes.
    And using distributed ledger technology like blockchain 
could make that possible. We could see dynamic leasing. We 
could see lightweight leasing. We could see a lot more 
innovative uses of this scarce resource.
    So I think what you are describing is the right way to go.
    Ms. Matsui. OK, thank you.
    I want to move on to the C-band. I commend the FCC's work 
to identify the 3.7 to 4.2 gigahertz band as a potential core 
midrange band for next-generation networks. This band has 
propagation characteristics that make it ideal for reliable 
satellite distribution and particularly valuable for IG mobile 
networks.
    The NPRM that you unanimously approved earlier this month 
appropriately recognized that the Commission has insufficient 
information on incumbent operations that may need to be 
protected in the band. I appreciate the NPRM sought additional 
information on existing Earth station uses of C-band satellites 
as well as the previous application filing freeze.
    Chairman Pai, how is the work to gather additional 
information on incumbent users going?
    Mr. Pai. Thank you for the question, Congresswoman.
    It is going well, in part because we have extended the time 
and the latitude that some of these folks have to register with 
us. We have extended the timeframe by 90 days, until October 
17. We have streamlined the fees and the reports that are 
required for them to be able to report.
    And so at the end of the day, this fall we hope to be able 
to come to you just to let you know that we have a much more 
robust picture of where these stations are in order to allow us 
to proceed to a fully informed decision about the fate of the 
C-band.
    Ms. Matsui. OK, fine. Thank you.
    Mindful that clearing federally held spectrum is both 
critical in our effort to facilitate deployment of next-
generation networks and a congressionally mandated preference, 
I am interested in new ways to ensure we are using spectrum 
more efficiently and innovatively.
    Back in 2004, for instance, the FCC considered the role 
that opportunistic technologies and access systems could play 
in promoting leasing arrangements between commercial users and 
license holders.
    Specifically, I am interested in a legislative framework 
that would further facilitate the opportunity for NTIA to 
coordinate with the FCC and allow Federal agencies to lease 
spectrum to commercial users.
    Commissioner Carr, I know there is not much time, but how 
do you believe additional spectrum-sharing arrangements could 
balance the certainty and deployment needs of both commercial 
providers and government users?
    Mr. Carr. Congresswoman, thank you for the question and 
thank you for your longstanding leadership on spectrum issues.
    I think you are right. I think we need to put even more 
tools on the table, even more options on the table, and we 
should be exploring all ways to get more spectrum out there for 
consumer use.
    Ms. Matsui. Thank you.
    And I just want to make a comment. In my work on this 
committee I have been focused on expanding access to telehealth 
services. So I thank you, Commissioner Carr, for your focus on 
them.
    And with that, I yield back.
    Mrs. Blackburn. The gentlelady's time has expired.
    Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Madam Chairman.
    And to our Commissioners, thank you all very much for being 
here.
    Chairman Pai, earlier this year Congress provided funding 
to NTIA. We have talked a little bit about the mapping issue. 
We provided that funding to NTIA to update the national 
broadband map in coordination with the FCC.
    How is that coordination effort going? And do you believe 
that a process that uses State and commercial data in addition 
to the material the Commission collects from the Form 477 
process will render a more accurate and useful map?
    Mr. Pai. I appreciate the question, Congressman, and your 
leadership on this issue.
    I have personally spoken to the Administrator of NTIA about 
this issue. In addition to that, our staffs have been in touch 
to share expertise to make sure that they aren't reinventing 
any wheels and that we are all on the same page in terms of the 
need for mapping.
    In terms of the second part of your question, which of 
course now I have forgotten. Sorry.
    Mr. Johnson. It was, do you believe the process that uses 
State and commercial data in addition to the material from the 
477 process will render a more accurate and useful map?
    Mr. Pai. Our hope is that it will. And in the meantime, 
what we have done under my leadership over the last year and a 
half is to start a comprehensive review of the Form 477 
process, to make sure that the information that we get is as 
granular, is as feasible, and is as usable as possible for all 
of the folks who need it, including NTIA, Congress, the FCC, 
and others.
    Mr. Johnson. I know you know, and I think the other 
Commissioners agree, too, that an accurate map is important, 
and I appreciate what you said about not reinventing the wheel.
    This is not rocket science. We ought to be able to produce 
a map and we ought to be able to produce a map very, very 
quickly. An accurate map is the starting point for solving this 
problem. And it has been an issue that has just been dragging 
and dragging and dragging.
    So whatever you folks can do to encourage and push that 
along, it really is important to rural areas where we are 
suffering with intellectual capital loss, the rural-urban 
divide being very real. You guys know that. I appreciate that.
    Chairman Pai, cybersecurity is obviously a very important 
issue as well for our country, and there continues to be debate 
over which agency or which commission should take the lead on 
cybersecurity.
    I know that the telecommunications industry works routinely 
with the Department of Homeland Security, and conversations 
that occur with DHS are held in confidence, and that is 
required by statute.
    Obviously, that kind of protection of information 
encourages sharing of critical and confidential information, 
which we all agree is the best way to safeguard our 
communication systems. I understand.
    However, those same statutory protections do not exist at 
the FCC. So are you concerned that the FCC and DHS could work 
at cross-purposes, which may undermine cybersecurity?
    Mr. Pai. Great question, Congressman. Cybersecurity is a 
critical issue, and it seems like every week there is a new 
story that draws our attention to that fact.
    I am happy to report that over the last year and a half, we 
have had a very close and productive working relationship with 
the Department of Homeland Security. In fact, this very morning 
I spoke with DHS about some cybersecurity issues that have 
popped up.
    And so we certainly want to make sure we are on the same 
page there. Our role under current law is to act in more of a 
consultative fashion with DHS, which has the lead in terms of 
cybersecurity.
    Should Congress see fit to change the law--currently, the 
only arguable source of authority would be Section 1 of the 
Communications Act, which is a very high-level, broad 
statement, which doesn't give us operative authority there, as 
well as arguably Section 222, which is more consumer 
proprietary network information. But should Congress change the 
law, we would dutifully administer it to make sure that our 
networks are secure.
    And in the meantime, I will continue to work 
collaboratively with DHS and other Federal partners, including 
the intelligence community, to make sure that cybersecurity is 
reinforced as an important issue.
    Mr. Johnson. OK. And I can't get two questions in here, but 
I am going to try.
    5G. The United States won the race to 4G, increased our 
economy, according to some reports, by nearly $100 billion and 
drove an 84 percent increase in wireless-related jobs.
    Because of that leadership, the wireless industry now 
supports over 4.7 million jobs and contributes $475 billion 
annually to the U.S. economy, according to that Accenture 
report.
    What should the FCC do to ensure that we maintain our 
global lead in 5G so that all of those economic and job 
benefits continue to occur here in the U.S.?
    Mr. Pai. Congressman, exactly what we are doing. Being very 
aggressive on spectrum, holding the 28 and 24 gigahertz 
auctions this fall, 37, 39, and 47 gigahertz next year, in 
addition to looking at other bands, 3.7, 6 gigahertz, and 
others.
    In terms of infrastructure, we need to make sure that we 
continue to modernize our regulations to incentivize the 
construction and use of the small cells and distributed antenna 
systems and other guts of the future 5G networks.
    And I can tell you our work is having an impact not just on 
my own word, but I recently came from two conferences, one in 
Switzerland, one in Panama. And to hear from regulators 
everywhere around the world, from Algeria to Guyana, to even 
Trinidad and Tobago to Fiji, tell us they are looking to the 
United States for leadership because, as one regulator put it 
to me: You guys are doing it right and we follow your lead on 
this 5G issue.
    That is something that I think reinforces the fact that we 
are doing the right thing.
    Mr. Johnson. Let us know how we can help.
    And with that, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, you are recognized.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    And welcome to the entire Commission.
    Commissioner Rosenworcel said 9 months is a school year. It 
is also the length of time that it takes for a child to come 
into this world. So it has been a while. It has been a while. 
Welcome back.
    I want to set the record straight on a couple of things 
first. It has been said that people are entitled to their 
opinions, but not their own facts. It has been cast about here 
today that it is somehow a fiction that my Republican friends 
destroyed net neutrality and wiped out privacy on the internet. 
That is not fiction; it is a fact.
    On December 14, 2017, the Commission voted to upend the net 
neutrality rules that were in place and that had been tested in 
court. Nonetheless, that was rescinded.
    On March 28, 2017, a CRA went sweeping through this 
committee. It was authored by our chairwoman, went through the 
full committee, went like a prairie fire through the House of 
Representatives, and removed all privacy protections from the 
internet. I know what I voted on. Obviously, I voted no. Others 
voted yes.
    But to say that these things somehow are a rumor where 
people are referring to them and they are not so is simply not 
a fact. So I want to really set that down, because I think it 
is important too.
    Mr. Chairman, I want to quickly follow up on Congressman 
McNerney's question where he specifically asked whether the FCC 
is cooperating with law enforcement agencies, et cetera, et 
cetera. Is that referred to the Bureau or to the Commission?
    Mr. Pai. Sorry, Congresswoman, is what referred?
    Ms. Eshoo. The investigations, referring the violations. 
Does the Bureau act on that or does the full Commission act on 
that?
    Mr. Pai. If we are talking about the same thing, the letter 
was referred to our Office of General Counsel.
    Ms. Eshoo. So what does that mean? What I want to know is, 
has there been a referral to a law enforcement agency? That is 
what I think Congressman McNerney was asking you, but you 
talked about the GAO, I think the FTC, the I don't know 
whatnot, the IG, the FC.
    So have you referred these violations to a law enforcement 
agency? That is what I would like to know. Yes or no?
    Mr. Pai. Congresswoman, we have consulted with the 
Department of Justice.
    Ms. Eshoo. No, no, no, no, no.
    Mr. Pai. We don't have jurisdiction----
    Mr. Eshoo. Has it been referred to? Has it been referred to 
for examination? Have you asked for an investigation of it?
    Mr. Pai. Congresswoman, it is not our role to administer 
Title 18. That is a Department of Justice issue.
    Ms. Eshoo. Well, I think you don't want to answer the 
question. I don't want to litigate it with you. I just want a 
yes or no.
    Mr. Pai. Congresswoman, it is very simple. To the extent 
that we have jurisdiction here, we have worked with the Office 
of Inspector General. We have worked with the General 
Accountability Office.
    Ms. Eshoo. I think I know what your ``answer'' is.
    I want to get to something, and I don't have much time. It 
probably is going to be more of a statement than anything else.
    It has been said that we have 24 million Americans that 
either have no broadband service or very slow broadband service 
in the country. Shame on all of us.
    Is there a 5-year plan at the FCC on this? Some of it may 
belong in the private sector. Some of it you need authority 
from the Congress and our subcommittee. Other actions the 
Commission can take. But when that is stitched together, we 
have solved this issue.
    Every time the Commission comes here, all of our 
subcommittee hearings, we go over and over and over and over 
this issue, and it is not getting any better.
    So can someone enlighten me on this?
    Yes, Commissioner.
    Mr. O'Rielly. So, in fairness, the Commission has spent an 
incredible amount of work on this.
    Ms. Eshoo. I think we all have, but I don't sense we are 
making progress.
    Mr. O'Rielly. We have done the easy stuff, the easy 
locations. We are working on what I would consider the medium 
locations. We have an ongoing auction right now for the CAF 
Phase II auction.
    What is left over from that and what is left over from our 
remote area--or from our rate of return areas that don't get 
served under our program--that is what is going to be the 
hardest----
    Ms. Eshoo. So what will that knock out of the park, what 
you just described, of the 24 million?
    Mr. O'Rielly. It is 14 million if you don't--it is 24 
million only if you don't count satellite that is serving 10 
million people today with 25/3.
    But it is important. I don't mean to say that 14 million 
should be ignored. But we are working on the really hard area. 
The Remote Areas Fund needs to be set up, and we are going to 
need additional funding that we don't have today.
    And it will either require contributions from Congress in 
Federal dollars, which I have testified in favor of and the 
dollars went to other Federal agencies----
    Ms. Eshoo. I backed you up on it.
    Mr. O'Rielly [continuing]. Or it is going to require 
additional contributions from ratepayers to the likes we 
haven't seen before.
    Mrs. Blackburn. The gentlelady's time has expired.
    Ms. Eshoo. Thank you very much.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Bilirakis, you are recognized.
    Mr. Bilirakis. Thank you, Madam Chair, appreciate it so 
very much. And I welcome the Commission and the Chairman.
    And, Chairman, thank you very much for coming to my area 
and speaking to my constituents. I really appreciate it very 
much.
    Chairman Pai, again, while you were in the Tampa Bay area, 
you were able to review the testing that Charter Communications 
was doing in and around the district. In particular, they are 
conducting trials in the 3.5 band, which is showing promise for 
better and faster rural coverage. At the same time, the 3.5 
band is utilized by Federal radar systems, which is used by the 
Navy and Coast Guard on the Gulf Coast of Florida as well as 
other areas.
    The Environmental Sensing Capability, ESC, has been created 
to ensure these Federal uses are not interfered with, while 
also allowing shared spectrum with industry in preparing the 
5G-enabled technology. This band provides a great opportunity 
for industry and competition as long as we ensure Federal 
systems remain secure.
    What is the status of ESC implementation and interference 
sensitivity standards, please?
    Mr. Pai. Thank you for the question, Congressman. And first 
and foremost, thank you for the hospitality you showed me, both 
in Tampa and in Oldsmar. It was a terrific visit to the 
district.
    I am very excited about the possibilities of 3.5 gigahertz 
spectrum, in part because of that trial you showed. To be able 
to see how Charter is using and how others potentially could 
use the spectrum to provide a seamless high-definition video 
experience as you are driving down the road. Very simple 
application, but a very powerful one nonetheless for consumers.
    The ESC is a critical part of that, and so I am happy to 
report that we are actively working with both NTIA and the 
Department of Defense on the testing. The testing is very 
complex, and so I can't give you a definitive timeframe on when 
it is going to be completed or what the results might show. But 
do know that we are working as quickly as possible to wrap that 
testing up to enable ESC to allow shared use of this valuable 
resource.
    Mr. Bilirakis. Very good.
    Commissioner O'Rielly, I know you are leading the charge on 
the 3.5. Do you have anything to add to that?
    Mr. O'Rielly. I would agree with the Chairman on this, but 
I would say there are two parts. There is the SAS, which deals 
with the commercial users, and the ESC, which deals with the 
Federal users, and how we make sure we don't cause 
interference.
    Those things, a couple months ago we thought we might 
separate them time-wise. I was briefed yesterday that it looks 
like things are lining up nicely. And I don't want to get ahead 
of myself, but I think Q1 of next year is not irrational, if 
not earlier.
    We are hoping to do some things that I can't speak of, but 
hopefully will be able to announce some things regarding the 
SAS later this year and then the ESCs really soon after. So I 
think things are lining up pretty nicely along those decisions.
    But can I go back to your earlier question? And I don't 
want to use your time.
    Mr. Bilirakis. Please.
    Mr. O'Rielly. But you mentioned the point regarding 
Charter. To get back to Congressman Doyle's point regarding 
census tracts, Charter has advocated a different position, in 
terms of they haven't favored census tracts, they have favored 
county-sized licenses. And so there are different positions 
than just census tracts, and I am trying to work out and try 
and find a commonality of the different entities that are 
seeking this.
    I will tell you, those that have favored census tracts have 
not moved or advocated 1 inch from where they have been for the 
last number of years. They will not yield anything to where 
they have been. So it has been hard to try and find commonality 
among all these different positions. And you mentioned Charter, 
so I thought I would bring that up.
    Mr. Bilirakis. Thank you very much. Thanks for the update.
    Back in March, after a very long wait, the D.C. Circuit 
Court issued its opinion on the Telephone Consumer Protection 
Act. In particular, this ruling invalidated the definition of 
an auto dialer and also did away with the Commission's 
reassigned number and safe harbor rules.
    In light of this opinion, what action is the FCC taking to 
establish valid TCPA definitions and rules that target bad 
actors, but do not put everyday Americans at risk to lawsuits?
    Commissioner, Mr. Chairman, can you address that?
    Mr. Pai. I would be happy to, Congressman.
    We are still actively studying the results of the opinion 
in ACA International, and we are working with our staff on the 
way forward on some of the key issues they identified: the 
definition of auto dialer, the reassigned number database, 
revocation of consent, and the like.
    So, again, I can't give you a specific timeframe, but we 
are actively looking at a variety of TCPA issues as a result of 
the D.C. Circuit's opinion.
    Mr. Bilirakis. Well, Madam Chair, I have got one more 
question, but I will go ahead and yield back my time and I will 
submit it for the record. I appreciate it. Thank you.
    Mrs. Blackburn. I thank the gentleman. The gentleman yields 
back.
    And, Mr. Flores, you are recognized.
    Mr. Flores. Thank you, Madam Chairman.
    Also, I want to thank all the members of the Commission for 
being with us today.
    Let me compliment you on something. I think that the 
Commission has done an excellent job of taking the statutory 
authorities that you have gotten from Congress and to 
effectuate the rollout of 5G.
    Based on what I have seen from the stakeholders in this 
space, we are moving much more quickly than I would have 
envisioned. We are going to have fixed wireless 5G in Houston 
as a test case at the end of this year.
    That is amazing when you can talk about speeds up to 3 to 
10 gigabits. That is amazing. So good work on getting that 
done. And that also, I think, sets the stage for a cost-
effective way to roll out rural broadband eventually. And I 
appreciate the work on that, to take care of the 24 million 
people that have been widely talked about during this hearing.
    Commissioners Pai and O'Rielly, you both touched in your 
testimony about what you are doing in terms of making spectrum 
available for 5G, and part of that entails dealing with the FM 
radio stations that were left out during the original 
legislation.
    My bill that deals with that was addressed in the RAY 
BAUM'S Act, and also we set aside the appropriations for you to 
do that. You have moved quickly to have an NPRM at your next 
hearing on August the 2nd. Can you give us a preview of what we 
can expect in that regard, just in a few seconds?
    Mr. Pai. Congressman, I certainly hope we will see a 
unanimous vote next week on my proposal, but I don't want to 
speak for my colleagues. But it is important for us to take 
that authority you gave us and run with it as quickly as 
possible, get public input on what the right procedures should 
be to protect full power/Class A TV stations, FM radio 
stations, and others as a result of the incentive auction.
    Mr. Flores. OK. Thank you.
    Moving on to another subject, believe it or not, one of the 
biggest complaints that I am receiving from my constituency, 
which is generally happy, is that they are upset about 
robocalls. And I don't think that has come up today. And I know 
you all are taking steps in terms of stopping the spoofing of 
phone numbers and so forth.
    Can you give us an update on where we stand in that regard? 
I guess who owns that among this group? Chairman Pai?
    Mr. Pai. I drew the short straw.
    Mr. Flores. You get all the big ones, don't you?
    Mr. Pai. We are doing a lot, Congressman. Thanks for the 
question. This is an issue that frustrates me. Even last week 
when I was on vacation, I spent several minutes on a phone with 
several robocallers, trying to figure out who they were, how 
they got my information, and the like.
    We are doing a lot. So over the last year and a half since 
I have been in office we have adopted a Notice of Inquiry on 
call authentication, essentially digital fingerprints for every 
single phone call. We have also in that regard blessed the 
private sector group called the NANC, which is looking at call 
authentication.
    Mr. Flores. Good.
    Mr. Pai. Secondly, we are taking steps to allow carriers to 
block spoofed calls, that is, calls that obviously aren't from 
your area code but nonetheless appear to be.
    Additionally, we are taking very aggressive action in terms 
of enforcement. Oh, sorry, I should mention also the reassigned 
number database, to allow those legitimate callers to know 
whether or not a number has been reassigned to somebody who 
doesn't want to be called.
    Additionally, on the back end, so to speak, taking very 
aggressive enforcement action. The largest fine ever imposed in 
the FCC's entire history was against a robocaller in Florida, 
about $120 million. Additional multimillion dollar fines there, 
too.
    I personally have spoken with some of my counterparts 
abroad, because a lot of these robocaller operations come from 
other countries and our jurisdiction only stops at the water's 
edge. And largely, they have been very willing to cooperate 
with us on that.
    Mr. Flores. Good.
    Do you need additional statutory authority at this stage of 
the game to be able to fight this epidemic?
    Mr. Pai. I think we have a fairly broad authority, but to 
the extent that Congress is willing to give us more tools in 
terms of statutes of limitations or the like, we would love to 
work with you on that.
    Mr. Flores. OK. Let us know what you think you need.
    I want to move to the mid-band spectrum in just the 
remaining minute that I have. Part of the mid-band spectrum of 
5.9 gigahertz was set aside for what was called dedicated 
short-range communications, or DSRC. That is a part of the 
spectrum that could be used for autonomous trucking, autonomous 
vehicles. You can have vehicle-to-vehicle communications, 
vehicle-to-infrastructure communications.
    Let me say this. Other people want to use that for 
unlicensed Wi-Fi and things like that to try to offload some 
data transmission from the SDR bands. This section seems to be 
congested or subject to future congestion. What do you see for 
the future of the 5.9 gigahertz part of the spectrum?
    Mr. Pai. It is a good question, Congressman. And 
Commissioners O'Rielly and Rosenworcel have long been 
advocating for this, as have Congresswoman Eshoo and I, in an 
op-ed we did a few years ago.
    We are working actively with our Office of Engineering and 
Technology at the FCC, along with the NTIA and NHTSA, the 
Department of Transportation and others, to figure out the way 
forward. So right now we are in phase I of testing. There has 
been a report that is in draft mode that we have shared with 
our Federal partners. We hope to be able to move forward on 
that soon.
    Ultimately, this has to be a collaborative effort. There 
are a lot of different agencies with different equities here. 
But ultimately, we want to make the highest-valued use of this 
spectrum.
    Mr. Flores. OK.
    I have some more stakeholders at home that are working on 
this. The Texas Transportation Institute is trying to design 
the trucking system of the future, and so they are pretty 
worried about what happens in this band. So we will send some 
supplemental questions for you.
    Mr. Pai. OK. Thank you.
    Mr. Flores. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Collins, you are recognized.
    Mr. Collins. Thank you, Madam Chair.
    Commissioner O'Rielly, I will maybe spend my time talking 
about the, what do we want to call it, the 9-1-1 diversion, the 
Fee Integrity Act that we are putting forward. You were kind 
enough to come visit.
    In my area, we went to a PSAP in Niagara County, which does 
not have the latest technology. They are quite frustrated. They 
don't have the moneys to get there. And because of your visit, 
we got a lot of press on this, we shined the light on New York 
State's diversion.
    So maybe just for the record to get this out there, New 
York has about 13 million cell phones. With 20 million people, 
that kind of makes sense. Little kids may not have them. The 
States set their own fee, which in this case New York set the 
highest fee in the Nation at $1.20 per month for the cell 
phones, raising $185 million for the 9-1-1, what is supposed to 
be for the 9-1-1 service.
    But, as our bill would forbid, New York State is diverting 
about 40 percent of that money to the general fund to be wasted 
in Albany. And that is about $75 million a year that should be 
going to upgrade PSAPs, like we have in Niagara County that are 
in woeful need of it. Instead, the money is just being 
frittered away in Albany.
    So our bill would put that $75 million back on the table, 
not only for New York, New Jersey, Guam and a few others that 
seem to have no interest short of some laws that would forbid 
this.
    And I will tell you, most of the folks in our district were 
astounded to know that the 9-1-1 service charge that is on 
their cell phone bill every day was not all going for 9-1-1 
service. They did not have a subtraction for New York State 
diversion, a 9-1-1 fee and then New York State diversion.
    So your visit was well-received in a bipartisan way. 
Certainly, all of the counties which are struggling for funds 
and want to update, they want to know when a call comes in who 
is calling, where they are instantly so they can dispatch the 
people, that everything is moving together.
    And some of these PSAPs are decades old. And in some cases, 
Erie County where I live, there are literally a dozen or more 
PSAPs. They aren't even consolidated within a county, because 
this sheriff's department wants theirs, this city police wants 
theirs, some fire issues. Even though all the cell phone calls 
go to one place and there are not too many land lines, people 
are somewhat protective of it.
    So, again, I want to thank you for helping us shine a light 
on this. And to further put this forward, Niagara County, where 
we were, we have done some research since then, over the last 5 
years they have paid $10 million--this is not a large county--
$10 million have gone into Albany as part of the $1.20 per 
phone.
    And while New York State diverted 40 percent, that still 
should have left $6 million to come back to Niagara County. But 
since each State makes its own rules--New York State I think 
tends to favor the downstate areas--only $2 million came back 
to Niagara County.
    So they paid in $10 million, with their residents thinking 
this $10 million is supposed to help our PSAP in Niagara 
County. Lo and behold, only $2 million came in.
    I can assure you, if that other $8 million, or even if the 
State diverted, if the remaining $4 million had come in, they 
would have upgraded that PSAP. Residents would be safer. Those 
working in those PSAPs, which is a very hard, frustrating job, 
would feel better when they go home at night.
    So with your input, I just want to point out again one of 
the things that this bill would do is to have the States not 
only stop diverting, but we would have the FCC better define 
what would be a use, because the minute they stop diverting 
they may say: Well, for public safety we are going to fix that 
pothole over here. Well, no, this is in need of some Federal 
oversight.
    And, again, if you want to make a couple of comments. I 
know I burned up most of the clock, but I wanted to get this 
all on the record.
    So Commissioner O'Rielly.
    Mr. O'Rielly. I can't thank you enough for your leadership 
on this issue. It was great to be home in Niagara County.
    Your point is well-taken in terms of the $10 million and 
only receiving back $2 million. So the consumers in my hometown 
are paying for it twice. Not only are they paying the 9-1-1 
fees that are being diverted, but then they are having to pay 
higher local residential taxes where the budgets are coming 
from. And so Niagara County, property taxes went up to fund the 
extra $8 million shortfall. And so they are being hit twice on 
this.
    And the New York government has made clear that they have 
no intention of changing this. Rhode Island has no interest 
right now in terms of solving their problem. New Jersey has the 
same problem. I was just talking to some folks from Guam with 
the same issues. We have some work to do on this front. I would 
love to continue to work with you under your leadershipon this.
    Mr. Collins. You shined a light on it. You were very 
helpful in that. Thank you all for your time today. This is 
also not a partisan issue whatsoever.
    So, Madam Chair, I yield back.
    Mr. O'Rielly. Public safety issue.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Costello, you are recognized.
    Mr. Costello. Thank you, Madam Chair.
    I want to first just say, since I have been on this 
committee, I have done my best to delve into these issues, and 
they are very sophisticated, the things that each of you deal 
with on a day-to-day basis. And I just want to commend each of 
you for your expertise and the time that you dedicate to our 
country and to the FCC and to the industry for trying to get it 
right.
    With that, I want to ask Commissioner O'Rielly a question. 
Some of my colleagues on the other side of the dais today have 
articulated their interest in giving the FCC more of a presence 
on cybersecurity issues. While the concern over cybersecurity 
and supply chain vulnerability is certainly well-founded, it is 
my understanding that the FCC is not and should not play a lead 
role--I emphasize lead role--on identifying and mitigating 
these vulnerabilities. The FCC has a long tradition of 
deferring to expert agencies in the executive branch with the 
relevant intelligence and national security expertise. For 
example, the FCC routinely refers applications for transfers of 
certain licenses to an informal working group in the executive 
branch known as Team Telecom to review the national security 
implications of each such transaction.
    Do you believe the FCC has anything new or unique to add to 
our nation's cybersecurity work, or do the intelligence and 
national security agencies currently have a good handle on 
these issues?
    Mr. O'Rielly. So I have to be careful in terms of what I 
can say in the public, but I do believe that the authority has 
been provided by Congress--so it is not my opinion; it is in 
the statute, who the Congress gave authority to was to other 
agencies besides the FCC on the issue of cybersecurity. And so 
that is not something that I believe we have great authority to 
act on. If Congress changes that authority, that is one thing. 
But I do believe that we work well with what you reference Team 
Telecom. There is a need to reform Team Telecom, and I have 
advocated some reforms to that. But I do believe that we do not 
have the primary role. We do have functions that we can add to 
that conversation.
    Mr. Costello. And that is why I direct the question. The 
reforms that you have advocated, does that contemplate that you 
do have existing expertise that could be lent if the statute 
was broadened to enable you to do that?
    Mr. O'Rielly. The changes that I am seeking is a more 
formal structure for Team Telecom and addressing the timing of 
the decisions that are made by them and making sure that 
interaction between the FCC and Team Telecom actually is 
beneficial. We had applications that sat at Team Telecom under 
the last administration for quite a long time period. That is 
problematic for those that have applied. It doesn't mean we are 
undermining our national security one iota; it means we have a 
better, more efficient government.
    Mr. Costello. So, if I were to characterize while you agree 
that cybersecurity is a deeply serious issue, you do not feel 
that placing more jurisdiction within the FCC or having the FCC 
exercise additional jurisdiction, be it within the statute or 
broadening the statute, would be well placed because we have 
existing intelligence agencies that are already fully capable 
of doing that, and the FCC does not have anything additional to 
add. Is that correct? Did I just, like, say too much?
    Mr. O'Rielly. I would agree with an awful lot of what you 
said. We will continue to have conversations with those 
entities, but I think that they have a great deal of authority 
and are capable of providing us the information as it relates 
to applications that are submitted for our consideration.
    Mr. Costello. OK. I do have a question for Commissioner 
Carr, but does anyone have anything to add to that real 
briefly?
    OK. Telehealth, as you are aware, the prospect of 
telehealth holds exponential benefits for patients, families, 
and the healthcare system at large. But on the issue of access 
for rural America, Commissioner Carr, what can we expect to 
come out of the 3-year pilot program? What sort of job creation 
can rural communities expect from increased investment of the 
development of telehealth technologies?
    Mr. Carr. Thanks so much for the question.
    These are some of the things that we want to tee up in this 
notice of inquiry that is up for a vote. We have seen some 
great examples of telehealth, remote patient monitoring 
technologies, and a significantly improved outcome for low-
income patients, including in rural America, as I mentioned in 
my testimony, in the Mississippi Delta.
    We have also seen significant cost savings. One program I 
mentioned in the Mississippi Delta, if just 20 percent of the 
diabetic population in the Magnolia State enrolled in that type 
of a program, we would be projected to save about $189 million 
in terms of the State's Medicaid expenses.
    Mr. Costello. Very good. Anyone else to add on that? Yes.
    Mr. Pai. I will simply add that I agree with everything 
Commissioner Carr said. A few months ago, President Kennedy's 
first FCC chairman, Newt Minow, and I wrote an op-ed, a 
bipartisan op-ed that emphasized the importance of 
telemedicine. And Commissioner Carr has expounded these 
principles very well. And if you look at some of the cases we 
identified--schools in Scottsville, Kentucky, that for the 
first time are able to treat students because there is no 
pediatrician in all of Allen County, Kentucky; if you look at 
the Veterans Affairs facilities in Lecanto, Florida, and Boise, 
Idaho, where they are providing veterans mental health 
consultations and experts around the country--if you look at 
all of these great things that the FCC is doing in 
collaboration with the public and private sectors, we could 
really dramatically improve health outcomes for millions of 
Americans. And here too I think we are only scratching the 
surface of its potential.
    And that has a direct impact on you as well. Instead of 
spending a lot of money on an emergency room visit, if we do 
proactive health treatments for some of these folks, we can 
save a lot of money for the system but, more importantly, save 
lives and improve health outcomes.
    Mr. Costello. Thank you.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Seeing that there are no further--oh, Kinzinger came in. 
Oh, hi.
    Mr. Kinzinger. I bought you guys another 5 minutes. You are 
welcome.
    Thank you.
    Mrs. Blackburn. There you go. You are recognized.
    Mr. Kinzinger. Thank you, Madam Chair.
    And thank you all for being here and all your service to 
the country and what you do. And I really appreciate it.
    I recently reintroduced the FCC Transparency Act, which 
would require the Commission to publish on its website any 
documents to be considered and voted upon at least 21 days in 
advance. In reality, it is simply a codification of the most 
importation aspects of the transparency process currently in 
place at the FCC.
    I realize that most of the Commission has weighed in 
publicly on my bill. But just to have your opinions as part of 
the record for this, I want to ask each of you, do you support 
the current transparency processes in place at the FCC, and by 
extension, do you support the FCC Transparency Act?
    We will start with you, Mr. Chairman.
    Mr. Pai. Absolutely, Congressman. Thank you for your 
leadership.
    Mr. O'Rielly. Yes. I concur. I agree wholeheartedly with 
your bill.
    Mr. Carr. Yes and yes. I think it codifies good government, 
and it is a step in the right direction.
    Ms. Rosenworcel. Yes, for items that are placed on our 
monthly agenda meeting.
    Mr. Kinzinger. Thank you.
    Commissioner O'Rielly, your actions to roll back the so 
called kid vid rules is born out of recognition that there is 
so much choice today in terms of children's programming. 
Whether it is on a tablet, an Apple TV, a Roku, or traditional 
broadcast TV service, you argue that the government need not 
mandate specific programing to any one outlet. And to be clear, 
I support families and children having access to good 
educational programing, but I do watch some TV, and I would 
argue that competition and consumer choice have never been 
greater, not only for children's programming but for all 
audiences.
    If you don't mind, briefly summarize your assessment of the 
video marketplace and choices available to consumers.
    Mr. O'Rielly. Well, thank you. I will say I only take issue 
with your use of the word rollback. We are trying to provide 
greater flexibility on the kid vid issue. As you highlighted, 
the marketplace has changed incredibly since 1990 when the 
statute, the Children's Television Act, was enacted, in 1996, 
when the rules by the FCC were put in place, and 2004, when 
they were modified extensively. So the world has changed, and 
we have a much broader marketplace. It is not just your three 
broadcast channels on Saturday morning. It is a plethora of 
cable options, and it is a ton of options for those over the 
top.
    Now there has been concern, what happens for the family 
that doesn't have any of that except broadcast television? And 
we have tried to address that in the NPRM and are going to take 
comments on giving the opportunity and the flexibility for 
broadcasters to move that signal that they have on a primary 
channel today to a multicast channel so programming will still 
be available to those over-the-air-only households. So I would 
argue it is to provide flexibility without harming children 
that we are seeking to do hopefully later this year.
    Mr. Kinzinger. Thank you.
    Also, as a co-chair of the bipartisan Rural Broadband 
Caucus, my colleagues and I have worked diligently to close the 
digital divide between urban and rural. In the 21st century, 
broadband access is vital for employers, and employees, 
educators, and students, doctors, and patients and ag. 
Broadband access also allows people to participate in digital 
commerce, which provides a convenience to our rural 
constituents while bolstering both their local economy and the 
national economy.
    I am proud that my provisions and others I supported, 
including the Rural Spectrum Accessibility Act and the 
Improving Broadband Access for Veterans Act, were included in 
the RAY BAUM'S Act and signed into law in March. And I am also 
proud that my fellow caucus co-chairs and I asked for and 
received robust resources for rural broadband infrastructure in 
the fiscal year 2018 omni, to the tune of $600 million in new 
money.
    While broadband and telecom work continues, we are taking 
big steps toward ensuring rural Americans have the tools that 
they need to flourish. So, Commissioner O'Rielly, you focused 
in your testimony on the various funding streams being 
allocated toward rural broadband. We all want to bridge the 
digital divide, but I share your concern about the coordination 
of funding between agencies. We have to ensure that we are not 
being redundant resources by pouring money into the same areas 
from different agencies.
    Do you have ideas on how these agencies can better 
coordinate and how best to prevent the government from 
subsidizing the overbuilding of areas that are currently 
served?
    Mr. O'Rielly. I do, and I would love to provide technical 
advice to your team to help. I really appreciate the 
commendable efforts in terms of the pilot program that was 
created as part of the consolidated appropriations and efforts 
that are ongoing in the farm bills today, very beneficial. We 
want to get to exactly what you highlighted--there is not the 
duplication, make sure the speeds do not become a mechanism to 
overbuild--and I think there are ways to draft that and include 
helpful language. It hasn't been adopted. In past efforts, 
people have asked for language to be provided; didn't quite get 
there. And I think there is that opportunity to correct that 
going forward.
    Mr. Kinzinger. In the last 30 seconds, I will just make a 
point, versus ask a question, which is, on the issue of 
stingrays or IMSI: There has been a lot of ink lately about the 
fact that some of these devices have been located around 
sensitive areas. We made multiple requests to multiple agencies 
about how do we deal with this issue.
    I would like to make the point that, whether it is FCC or 
other agencies, we will encourage everybody to work together to 
figure out how to address this situation because I think it is 
a concern from a national security perspective and something 
that ought to be addressed.
    So, with that, Madam Chair, I thank you. And I yield back 
the balance of my time.
    Mrs. Blackburn. The gentleman yields back. And now there 
are no further members, and we thank you all very much.
    Before we conclude, I ask unanimous consent to enter the 
following documents into the record: A letter from the Credit 
Union National Association; a letter from the Utilities 
Technology Council; a letter to the FCC on 9-1-1 fee diversion; 
a U.S. Telecom blog post; a letter to the FCC on TCPA; a letter 
from Anthem and its affiliated health plans; a GAO report on 
Lifeline \*\.
---------------------------------------------------------------------------
    \*\ The information has been retained in committee files and can be 
found at: https://docs.house.gov/meetings/IF/IF16/20180725/108599/HHRG-
115-IF16-20180725-SD010-U10.pdf.
---------------------------------------------------------------------------
    Without objection so ordered and Mr. Doyle.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you, Madam Chair.
    I would like to make unanimous consent to add to the record 
the letter from wireless ISPs to the FCC regarding the CBRS 
band; Chairman Pai's tweet with the CEO of Wave Wireless; an 
article from Ars Technica regarding a letter and tweet made 
part of record; NTIA's letter to the FCC regarding copper 
retirement; and a letter from Senator Wyden to the FCC 
regarding Securus.
    Mrs. Blackburn. Without objection so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Pursuant to committee rules, members are 
reminded that they have 10 business days in which to submit 
additional questions.
    And we remind you that you have 10 business days in which 
to respond.
    Seeing no further business to come before the committee, 
the committee is adjourned.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Susan W. Brooks

    I'd like to thank Chairman Blackburn, Ranking Member Doyle, 
and all of the FCC Commissioners for being here today. Over the 
course of this year, this subcommittee has examined several 
areas that play a large role in the FCC's work to empower 
broadband and 5G deployment, streamline regulatory approaches, 
and ultimately reach our shared goal of closing the digital 
divide.
    I've been fortunate to have both Chairman Pai and 
Commissioner Carr visit my district. Chairman Pai and I visited 
a PSAP in Noblesville, Indiana, just outside of Indianapolis, 
last fall and discussed challenges and opportunities around 
NG9-1-1. I'm proud that Indiana is a leader in public safety 
communications. We already have text-to-9-1-1 statewide and our 
PSAPs are very engaged on NG9-1-1 efforts. Chairman Pai and I 
participated in a roundtable with 9-1-1 telecommunicators, 
public safety officials, first responders, and local elected 
officials where we discussed how Indiana can continue to 
enhance 9-1-1 systems and serve as a model for other states as 
we work to realize true Next Generation 9-1-1.
    Additionally, Commissioner Carr visited this past May and 
we visited Beck's Hybrids in small rural town in northern 
Hamilton County called Atlanta, Indiana. Becks' is the largest 
family-owned retail seed company in the Nation and are doing 
great work to deploy and pilot 5G in rural Indiana. 5G will 
start in more urban areas, but it has huge potential to help 
with rural broadband as well. We learned about how Beck's is 
collaborating with On-Ramp Indiana, a WISP based out of 
Noblesville, to bring 5G to rural areas and research exactly 
how 5G might work to help bridge the digital divide. Beck's 
built a precision ag management platform called Farm Server and 
worked with On-Ramp Indiana to build a wireless network from 
the ground up to power the Farm Server. It was a cool 
opportunity to see work like this being done! So again, thanks 
to both of you for coming to Indiana's Fifth District.
    I'd also like to thank Commissioner O'Rielly and his staff 
for working with me and my staff on the introduction of H.R. 
5700, the National Non-Emergency Mobile Number Act. A small, 
but important, provision that moves us one step closer to 
better interoperability between states with regard to public 
safety communications. I hope to see this commonsense, 
bipartisan bill pass into law.
    From 5G to NG9-1-1 to rural broadband, at the heart of 
innovation is the need for sound telecommunications policy. I'd 
like to thank Chairman Pai and the Commission for the steps you 
have already taken to modernize the FCC, increase transparency 
and accountability at the agency, free up spectrum, and all 
that you do. I look forward to our continued work together.
                              
                              ----------                              


                Prepared statement of Hon. Anna G. Eshoo

    Madame Chairwoman, thank you for holding this hearing 
today, and welcome to the full Commission.
    As Commissioner Rosenworcel pointed out in her testimony, 
it's been 9 months to the day since the FCC last testified 
before this Committee. A lot can happen in nine months, 
especially in the critically important and rapidly evolving 
tech sector.
    I want to set the record straight on a few things. It was 
stated today by the Chairman of the full Committee that it's 
fiction that the Republican majority has done great harm to the 
Internet and the consumers who rely on it. Each of us can hold 
an opinion, but we're not entitled to our own facts.
    Here are the facts: the FCC's majority spent the last year 
gutting communications consumer protections across the board. 
On December 14, 2017, the Commission voted to upend the net 
neutrality rules that had been tested in the Court twice. Those 
rules were supported on a bipartisan basis by the American 
people and businesses, but they were rescinded by the FCC.
    Similarly, in March 2017, a CRA swept through this 
Committee, authored by Chairwoman Blackburn, and then spread 
like a prairie fire through the rest of Congress, which removed 
all privacy protections on the Internet.
    The majority has done this harm not only by revoking high-
profile policies like net neutrality, but also through quieter 
actions such as roll-backs of multiple media ownership rules 
and reducing eligibility for Lifeline beneficiaries at the 
behest of incumbent corporate interests.
    With each rollback of consumer protections, we've seen 
providers announce more mergers, increased price hikes, and 
more limited choices. Where choice does exist, consumers must 
rely on increasingly consolidated incumbent companies. And 
ultimately, consumers will pay the price.
    I believe, as many of my colleagues do, that recent actions 
by the FCC have prioritized corporations over consumers, 
undermining the fundamental public interest mission of the FCC.
    Congress has oversight jurisdiction of the Federal 
Communications Commission, pursuant to the Communications Act, 
which is an Act of Congress. This is an FCC oversight hearing 
which means that as Members of Congress, we must ensure that 
the Commission is doing its job--and that job first and 
foremost is to advance the public interest.
    Is Chairman Pai's FCC advancing the public interest of the 
United States of America? I believe that is the question that 
should be at the forefront of today's hearing.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
